UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




              Case Processing Costs


                Report No. OIG-AMR-64-11-02




                                              April 7, 2011
                                             CONTENTS

EXECUTIVE SUMMARY ............................................................................ 1

BACKGROUND.......................................................................................... 2

OBJECTIVE, SCOPE, AND METHODOLOGY............................................... 3

ANALYSIS ................................................................................................ 4

RECOMMENDATIONS ............................................................................. 41

APPENDIX

        Memorandum from the Associate General Counsel, Division of
        Operations-Management, Draft Report of Case Processing Costs, (OIG-
        AMR-64), dated April 6, 2011
National Labor Relations Board
Office of Inspector General

EXECUTIVE SUMMARY

We conducted this audit to determine what costs could be associated
with case processing by the Regions and to identify potential cost
savings. The scope of our review was all cases that were processed and
all expenses that occurred in Fiscal Year 2009.

To determine the costs associated with case processing, we reviewed the
operations of the offices in the Regions and analyzed the Agency's
expenses to allocate the expenses to specific Regions. We also assessed
the productivity of each Region by using the Agency's method of
assigning cases a value based upon the "impact analysis" category. To
compare Regions, we divided the operating expenses by the total case
value to determine a "production unit" cost.

To ensure a complete assessment of the Region's productivity, we
compiled and summarized data related to the resolution of cases and
staffing of each Region; and we categorized the cases by the distance of
the charging party from the Regional Office.

Our analysis of this data demonstrates that Regions with larger
caseloads achieve an efficiency that is not obtained by Regions with
smaller caseloads. We also found that Regions with multiple offices and
more than 1,000 active cases generally had a lower cost per production
unit than Regions with a single office.

We recommended that the Division of Operations-Management achieve
greater efficiencies in its Regional operations by consolidating offices and
eliminating positions in overstaffed Regions by attrition. We also
recommend relocating offices in high rent urban office districts to
locations that offer lower lease costs when the relocation will result in
cost savings.

The Division of Operations-Management commented that the Acting
General Counsel is committed to ensuring that the Regional Office
structure meets future case processing needs and is as efficient as
possible. The comments also stated that they did not believe that offices
should be consolidated based upon case intake alone, but that they
should also consider staffing levels, travel costs, and fluctuation in case
intake. The comments are included in their entirety as an appendix.




                                  1
BACKGROUND

             The National Labor Relations Board (NLRB or Agency)
             is vested with the statutory authority under the
             National Labor Relations Act (NLRA) to safeguard
             employees' rights to organize and to determine
             whether to have unions as their bargaining
             representative. The Agency also acts to prevent and
             remedy unfair labor practices committed by private
             sector employers and unions.

             Before the NLRB can exercise its statutory authority to
             remedy a violation of the NLRA, an employee, union
             representative, or employer must first file a charge
             alleging an unfair labor practice. Likewise, private
             sector employees must first file a petition to organize a
             bargaining unit in their workplace, or to dissolve their
             labor union through a decertification election before
             the NLRB can act in a representation matter. Cases
             involving an unfair labor practice are generally referred
             to as "C cases" and petitions involving representation
             matters are referred to as "R cases." Cases are
             categorized and prioritized by the type of charges and
             petitions that are filed.

             The Agency divided the Country into 32 Regions. Each
             Region serves a specific geographic area and has at
             least one Regional Office and may also have
             subordinate Subregional and/or Resident Offices.
             Together, these offices are generally known as "field
             offices." The size of Regions varies greatly, with some
             serving only a metropolitan area and others covering
             several states. Charges and petitions can only be
             initiated in a field office.

             From Fiscal Year (FY) 2001 to 2009, the NLRB’s total
             case intake dropped 22.9 percent from 33,534 to
             25,855. During that same period of time, the NLRB’s
             Regional staffing level, as represented by the number
             of full-time equivalents, dropped by 17.6 percent from
             1,380 to 1,137. In FY 2010, the case intake increased
             by 2.7 percent and the Regional staffing level increased
             by an estimated 4.5 percent.




                            2
OBJECTIVE, SCOPE, AND METHODOLOGY

             The objective of this audit was to identify costs
             associated with Regional Office case processing and
             identify potential savings. Our scope was Regional
             Office case processing activity and costs for FY 2009.

             We obtained information from the Agency’s financial
             management system to identify costs associated with
             Regional Office casehandling. Personnel and direct
             casehandling costs such as travel, office supplies, and
             court reporting are charged directly to the Regional
             Office. Other costs such as rent, database
             subscriptions, and computer equipment, are managed
             by various Headquarters units and charged to a
             general Agency account. For these costs, we gained an
             understanding of the nature of the costs and allocated
             those costs to the Regional Offices.

             We obtained data from the Case Activity Tracking
             System to create a universe of cases worked on during
             FY 2009. We performed procedures to determine
             whether the information was reliable.

             The Division of Operations-Management uses a
             formula to weight cases to develop staffing
             requirements. We used this formula as the basis for
             developing a measure called production units, which
             factors in the relative workload in each of the Regional
             Offices.

             We conducted this performance audit in accordance
             with generally accepted government auditing
             standards during the period May 2010 through March
             2011. Those standards require that we plan and
             perform the audit to obtain sufficient, appropriate
             evidence to provide a reasonable basis for our findings
             and conclusions based on our audit objectives. We
             believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions
             based on our audit objectives.




                            3
ANALYSIS

              Case Processing Costs

              We set out to determine what expenditures of Agency
              funds could be allocated directly to Regional
              operations. If we could allocate the expenditure to the
              Regions, we considered it a casehandling cost and
              included it in our analysis. As such, we did not
              include expenditures related to case processing that
              occurred at Headquarters.

              The chart below shows the Regional casehandling
              expenditures on an Agencywide basis:

           Case Processing Costs                          Amount
            Salary and benefits                     135,732,079.58
            Rent, security and related space
           (Without parking)                         15,633,644.39
            Parking                                      12,778.37
            Mileage                                     382,687.32
            TDY-related travel                          537,943.22
            Car rental - non-GSA                         16,827.05
            Car rental - GSA                            159,081.06
            Witness fees and travel                      58,952.17
            Interpreter and translation                 254,576.53
            Field reporting                             801,233.60
            Supplies                                    477,791.72
            Copier                                      630,622.80
            Computer - amortized                        311,272.87
            Health units                                156,343.95
            Transit benefits                            591,250.80
            Leased telephone lines                    1,053,444.94
            Conference calls                            249,412.62
            FTS                                          60,695.09
            Postage                                     148,339.67
            Mail room                                    49,000.00
            Messenger services                           54,558.52
            Other directly charged casehandling          65,800.92
            Parking - casehandling                       14,519.98
            Wide area network                           639,632.31
            Database services                           807,995.01
            Summary total                         $ 158,900,484.49




                                    4
The description of each cost is general in nature rather
than a specific line item from the Agency's accounting
system. For example, the item identified as "Rent,
security and related space" includes the actual
monthly rental and security expenses and any
amortized expense related to tenant improvements.
We also amortized costs associated with information
technology equipment and allocated a proportional
share of the cost of electronic databases to the Region
based upon the formula used to determine the cost of
the particular database.

Cases Processed

To determine the cases processed during the fiscal
year, we looked at all the cases that were actively
worked on in Regions. If a case was open at the
beginning of or during the fiscal year, we considered it
an active case unless there was no activity associated
with the case for the entire year. For example, we
excluded cases that were open in a Region, but were
pending review in the Office of Appeals or at the Board
at the start of the fiscal year and required no
additional work by the Region during the fiscal year.
We also excluded cases that were in a deferred status
for the entire fiscal year or were dismissed without
requiring additional work by the Region. For R cases,
we excluded any cases that were blocked by a C case
for the entire fiscal year.

Once we had the listing of all active cases, we then
assigned the case a value based upon the Agency's
Impact Analysis categorization. Impact Analysis was
established by the General Counsel in 1995, and was
designed to provide for differentiation of cases based
on public impact. The fundamental purpose of this
system was to ensure that those cases that require
prompt resolution because of their public impact
receive sufficient resources and the Agency's best
efforts. As initially proposed, cases were divided into
three categories: Category III (exceptional), Category II
(significant), and Category I (important). The Division
of Operations-Management uses the Impact Analysis




               5
categorization of cases as part of its Regional Office
staffing formula. The staffing formula also assigns
points for compliance and R Cases. The points are
assigned as follows:

            Category III    2.5 points
            Category II       2 points
            Category I        1 point
            R Case            2 points
            Compliance Case   2 points

Because the Agency categorizes cases based upon
impact and assigns specific points to cases to
determine staffing levels, we decided that the same
point system would be useful when comparing
workloads of the Regions to one another. For the
purposes of this report, we considered one point as a
"production unit." For example, a category III case
was assigned 2.5 production points and R Cases were
assigned 2 productions points. The points assigned to
each case were then credited to individual employees
in the Regional Office that performed work on the case.
If more than one employee worked on a case, the
production points were shared among the employees.
Generally, managers, supervisors, and support staff
were not assigned cases in the Agency's case tracking
system. We did not, therefore, divide the production
units among the managers, supervisors, and support
staff unless they were assigned the case in the case
tracking system as a case processing employee.

For the Agency as a whole, there were 35,945 cases
that resulted in 75,660 production units at a cost of
$158,900,484 or $2,100 per production unit.

The following is a table that provides summary
information for each Region followed by more detailed
tables with our case processing analysis compared to
case processing costs. With the detailed tables, we
included the Region's case processing costs;
information related to staffing of the Region; and the
timing of the resolution of the cases.




               6
                                        Total
                                   Production   Case Processing  Cost Per    Managers and   Professional
Region                       Cases      Units              Cost      Unit     Supervisors    Employees
R-1 Boston                   1,341   2,780.09     $5,671,964.86 $2,040.21               7            22
R-2 New York                 1,731   3,790.10     $8,376,423.96 $2,210.08               9            31
R-3 Buffalo and Resident
Office                         977   1,985.88    $4,350,289.23 $2,190.61               6             18
R-4 Philadelphia             1,473   3,228.71    $6,693,395.49 $2,073.09               9             29
R-5 Baltimore and Resident
Office                       1,358   2,955.95    $5,286,827.10 $1,788.54               8             20
R-6 Pittsburgh                 755   1,592.83    $4,653,875.43 $2,921.77               6             20
R-7 Detroit and Resident
Office                       1,972   4,193.52    $8,453,135.18 $2,015.76              10             39
R-8 Cleveland                1,234   2,594.87    $5,473,762.25 $2,109.46               7             23
R-9 Cincinnati               1,200   2,427.11    $5,612,935.57 $2,312.60               7             24
R-10 Atlanta and Resident
Office                       1,008   2,022.17    $5,089,390.97 $2,516.80               6             20
R-11 Winston-Salem             786   1,476.53    $3,005,934.44 $2,035.81               5             13
R-12 Tampa and Resident
Offices                      1,006   2,071.02    $4,968,430.79 $2,399.03               7             20
R-13 Chicago                 1,310   2,866.85    $7,009,401.71 $2,444.98               8             29
R-14 St Louis and
Subregion                    1,161   2,388.66    $4,949,984.98 $2,072.29               7             20
R-15 New Orleans               869   1,813.97    $3,004,713.46 $1,656.43               3             13
R-16 Ft Worth and
Resident Offices             1,158   2,294.08    $4,160,048.50 $1,813.38               7             15
R-17 Overland Park and
Resident Office               719    1,401.05    $3,156,809.27 $2,253.17               5             14
R-18 Minneapolis and
Resident Office               610    1,278.84    $3,546,579.27 $2,773.28               5             12
R-19 Seattle, Subregion
and Resident Office          1,595   3,427.67    $6,624,346.88 $1,932.61               9             26
R-20 San Francisco and
Subregion                    1,614   3,328.32    $6,396,870.92 $1,921.95               8             24
R-21 Los Angeles and
Resident Office              1,172   2,495.06    $4,945,356.83   $1,982.06             7             20
R-22 Newark                  1,282   2,666.41    $5,713,563.79   $2,142.79             7             21
R-24 Hato Rey                  624   1,362.99    $2,531,209.18   $1,857.10             4             11
R-25 Indianapolis              773   1,609.66    $3,440,648.04   $2,137.50             5             14
R-26 Memphis and
Resident Offices              647    1,262.67    $3,461,259.94 $2,741.22               7             11
R-27 Denver                   751    1,500.15    $3,375,505.61 $2,250.11               4             13
R-28 Phoenix and Resident
Offices                      1,260   2,797.16    $4,873,365.73   $1,742.25             6             20
R-29   Brooklyn              1,615   3,635.75    $7,950,373.76   $2,186.72             8             31
R-30   Milwaukee               700   1,506.04    $2,769,392.42   $1,838.86             4             12
R-31   Los Angeles           1,135   2,459.60    $4,937,391.92   $2,007.40             7             17
R-32   Oakland               1,465   3,074.80    $5,283,944.18   $1,718.47             7             21
R-34   Hartford                644   1,371.77    $3,133,352.83   $2,284.17             5             10




                                                  7
                                                                            Region 1 – Boston

                                                                                 Single Agent        Multiple Agent
                     Single Agent        Multiple                              Cases Production     Cases Production
                         Cases         Agent Cases        Total Cases                Units                Units                      Total Units
                       C       R         C      R      C      R     Total                                                                            Total     Cost Per
                     cases cases       cases cases   cases cases Cases         C cases    R cases   C cases   R cases      C cases      R cases      Units      Unit
   Cases w/
   Agents            1,007    144      152    37     1,159    181   1,340      2,050.00   288.00    367.53    73.56       2,417.53      361.56      2,779.09
   Cases w/out                                                                                                                                                 $2,040.21
   Agents                                              1       0      1                                                     1.00         0.00         1.00
   Total             1,007    144      152    37     1,160    181   1,341      2,050.00   288.00    367.53    73.56       2,418.53      361.56      2,780.09

Case Processing Costs                                  Amount         C Case Resolution               Total           R Case Resolution                               Total
 Salary and benefits                               4,783,556.34       Pre-Complaint                    670                                   Certification              80
 Rent, security and related space                                                                                     No Hearing
                                                                      Pre-Complaint/                                                         Other                      51
(Without parking)                                  642,459.13
                                                                      Compliance                         26                                  Certification                8
 Parking                                               445.08                                                         Pre-Election Hearing
                                                                      After Complaint, Before                                                Other                        5
 Mileage                                            22,686.75         Hearing                            11                                  Certification                2
 TDY-related travel                                 16,488.26                                                         Post-Election Hearing
                                                                      After Complaint, Before                                                Other
 Car rental - non-GSA                                       -         Hearing/ Compliance                20           Both Pre- and Post-    Certification
 Car rental - GSA                                    9,047.85         After Hearing, Before                           Election Hearings      Other
 Witness fees and travel                             3,225.47         Board Decision                     10           Open at September 30, 2009                           35
 Interpreter and translation                         1,391.25
                                                                      After Hearing, Before
 Field reporting                                    19,510.80         Board Decision/                                 Employee Classification                      Number
 Supplies                                           37,270.06         Compliance                          4           Managers                                          3
 Copier                                             13,617.84         After Board Decision                            Supervisors                                       4
 Computer - amortized                                4,770.50         After Board Decision/                           Board Agents                                     21
 Health units                                        4,532.47         Compliance                                      Compliance Officers                               1
 Transit benefits                                   33,242.00         After Court Judgment                            Support Managers                                  1
 Leased telephone lines                             22,654.55         After Court Judgment/                           Support                                           9
 Conference calls                                    3,998.37         Compliance                                      Interns/Detailees/Other                           9
 FTS                                                   887.22         Open at September 30,
 Postage                                            10,406.08         2009                             419             Clerical staff per professional staff               0.3
 Mail room                                                  -
 Messenger services                                  1,260.62
 Other directly charged casehandling                 1,098.01
 Parking - casehandling                                     -
 Wide area network                                  12,541.81
 Database services                                  26,874.40
 Summary total                                 $ 5,671,964.86
                                                                                    8
                                                                        Region 2 – New York

                                                                                  Single Agent        Multiple Agent
                      Single Agent       Multiple                               Cases Production     Cases Production
                          Cases        Agent Cases        Total Cases                 Units                Units                      Total Units
                        C       R        C      R      C      R     Total                                                                             Total    Cost Per
                      cases cases      cases cases   cases cases Cases          C cases    R cases   C cases   R cases     C cases      R cases       Units     Unit
    Cases w/
    Agents            1,381    133     152    13     1,533     146   1,679     3,040.00    266.00    351.10    25.00       3,391.10      291.00     3,682.10
    Cases w/out                                                                                                                                                $2,210.08
    Agents                                            36        16    52                                                    76.00        32.00       108.00
    Total             1,381    133     152    13     1,569     162   1,731     3,040.00    266.00    351.10    25.00       3,467.10      323.00     3,790.10

Case Processing Costs                               Amount
                                                                      C Case Resolution              Total             R Case Resolution                              Total
 Salary and benefits                            6,840,934.96          Pre-Complaint                   896                                     Certification             61
 Rent, security and related space                                                                                      No Hearing
                                                                      Pre-Complaint/                                                          Other                     58
(Without parking)                              1,120,193.42
                                                                      Compliance                        40                                    Certification               1
 Parking                                                  -                                                            Pre-Election Hearing
                                                                      After Complaint, Before                                                 Other                       2
 Mileage                                           2,138.49
                                                                      Hearing                           16                                    Certification               1
 TDY-related travel                                5,454.23                                                            Post-Election Hearing
                                                                      After Complaint, Before                                                 Other
 Car rental - non-GSA                                     -           Hearing/ Compliance               21             Both Pre- and Post-    Certification
 Car rental - GSA                                         -           After Hearing, Before                            Election Hearings      Other
 Witness fees and travel                             370.43           Board Decision                     1             Open at September 30, 2009                          39
 Interpreter and translation                      71,186.54
                                                                      After Hearing, Before
 Field reporting                                  55,922.35
                                                                      Board Decision/                               Employee Classification                        Number
 Supplies                                         29,043.29           Compliance                        19          Managers                                            3
 Copier                                           23,781.84           After Board Decision                          Supervisors                                         6
 Computer - amortized                             17,459.22           After Board Decision/                         Board Agents                                       30
 Health units                                      7,105.00           Compliance                         1          Compliance Officers                                 1
 Transit benefits                                 62,720.00           After Court Judgment                          Support Managers                                    1
 Leased telephone lines                           31,850.76           After Court Judgment/                         Support                                            15
 Conference calls                                  7,117.63           Compliance                        11          Interns/Detailees/Other                            11
 FTS                                               1,196.49           Open at September 30,
 Postage                                                  -           2009                             564             Clerical staff per professional staff               0.4
 Mail room                                        49,000.00
 Messenger services                                1,264.31
 Other directly charged casehandling                 923.03
 Parking - casehandling                                   -
 Wide area network                                12,541.81
 Database services                                36,220.16
 Summary total                               $ 8,376,423.96
                                                                                     9
                                                             Region 3 – Buffalo (Includes a Resident Office)

                                                                                    Single Agent       Multiple Agent
                     Single Agent        Multiple                                 Cases Production    Cases Production
                         Cases         Agent Cases         Total Cases                  Units               Units                       Total Units
                       C       R         C      R       C      R     Total                                                                              Total     Cost Per
                     cases cases       cases cases    cases cases Cases          C cases    R cases   C cases   R cases       C cases     R cases       Units      Unit
   Cases w/
   Agents             692     122      155     3       847        125   972      1,389.50   244.00    336.38     6.00        1,725.88      250.00     1,975.88
   Cases w/out                                                                                                                                                    $2,190.61
   Agents                                               2          3     5                                                     4.00         6.00       10.00
   Total              692     122      155     3       849        128   977      1,389.50   244.00    336.38     6.00        1,729.88      256.00     1,985.88

Case Processing Costs                                  Amount
                                                                        C Case Resolution              Total             R Case Resolution                               Total
 Salary and benefits                               3,682,796.43         Pre-Complaint                   574                                     Certification              57
 Rent, security and related space                                                                                        No Hearing
                                                                        Pre-Complaint/                                                          Other                      37
(Without parking)                                458,236.93
                                                                        Compliance                        17                                    Certification                4
 Parking                                             196.92                                                              Pre-Election Hearing
                                                                        After Complaint, Before                                                 Other                        4
 Mileage                                          10,369.63
                                                                        Hearing                            9                                    Certification
 TDY-related travel                               13,204.51                                                              Post-Election Hearing
                                                                        After Complaint, Before                                                 Other
 Car rental - non-GSA                                 74.62             Hearing/ Compliance                5             Both Pre- and Post-    Certification                  1
 Car rental - GSA                                  6,479.66             After Hearing, Before                            Election Hearings      Other
 Witness fees and travel                             523.10             Board Decision                     4             Open at September 30, 2009                           25
 Interpreter and translation                       1,385.00
                                                                        After Hearing, Before
 Field reporting                                  16,288.65
                                                                        Board Decision/                                  Employee Classification                      Number
 Supplies                                         12,500.05             Compliance                        18             Managers                                          3
 Copier                                           24,850.80             After Board Decision               1             Supervisors                                       3
 Computer - amortized                             12,236.95             After Board Decision/                            Board Agents                                     17
 Health units                                      7,039.65             Compliance                         1             Compliance Officers                               1
 Transit benefits                                  4,990.00             After Court Judgment               1             Support Managers                                  1
 Leased telephone lines                           23,264.63             After Court Judgment/                            Support                                           8
 Conference calls                                 17,028.75             Compliance                         2             Interns/Detailees/Other                           1
 FTS                                               1,198.68             Open at September 30,
 Postage                                           8,032.14             2009                             217              Clerical staff per professional staff               0.4
 Mail room                                                -
 Messenger services                                  713.68
 Other directly charged casehandling               1,009.20
 Parking - casehandling                                   -
 Wide area network                                25,083.62
 Database services                                22,785.63
 Summary total                               $ 4,350,289.23
                                                                                      10
                                                                      Region 4 – Philadelphia

                                                                                  Single Agent          Multiple Agent
                      Single Agent       Multiple                               Cases Production       Cases Production
                          Cases        Agent Cases        Total Cases                 Units                  Units                    Total Units
                        C       R        C      R      C      R     Total                                                                            Total     Cost Per
                      cases cases      cases cases   cases cases Cases          C cases      R cases   C cases   R cases   C cases     R cases       Units      Unit
  Cases w/
  Agents             1,064     163     221     20    1,285     183   1,468      2,246.00     326.00    605.70    40.01     2,851.70     366.01      3,217.71
  Cases w/out                                                                                                                                                  $2,073.09
  Agents                                               4        1      5                                                     9.00        2.00        11.00
  Total              1,064     163     221     20    1,289     184   1,473      2,246.00     326.00    605.70    40.01     2,860.70     368.01      3,228.71

Case Processing Costs                               Amount
                                                                     C Case Resolution                 Total         R Case Resolution                               Total
 Salary and benefits                            5,965,111.38         Pre-Complaint                      716                                 Certification              78
 Rent, security and related space                                                                                    No Hearing
                                                                     Pre-Complaint/                                                         Other                      48
(Without parking)                                504,429.59
                                                                     Compliance                          38                                 Certification                6
 Parking                                                  -                                                          Pre-Election Hearing
                                                                     After Complaint, Before                                                Other                      11
 Mileage                                           1,813.67
                                                                     Hearing                             32                                 Certification                4
 TDY-related travel                                5,281.81                                                          Post-Election Hearing
                                                                     After Complaint, Before                                                Other
 Car rental - non-GSA                                     -          Hearing/ Compliance                 12          Both Pre- and Post-    Certification                   1
 Car rental - GSA                                  6,460.32          After Hearing, Before                           Election Hearings      Other
 Witness fees and travel                             854.33          Board Decision                                  Open at September 30, 2009                            36
 Interpreter and translation                       1,313.12
                                                                     After Hearing, Before
 Field reporting                                  19,225.40
                                                                     Board Decision/                                 Employee Classification                       Number
 Supplies                                         16,344.70          Compliance                           2          Managers                                           3
 Copier                                           13,617.84          After Board Decision                            Supervisors                                        6
 Computer - amortized                             15,571.53          After Board Decision/                           Board Agents                                      28
 Health units                                      6,369.97          Compliance                           1          Compliance Officers                                1
 Transit benefits                                 42,306.00          After Court Judgment                            Support Managers                                   1
 Leased telephone lines                           34,301.68          After Court Judgment/                           Support                                           14
 Conference calls                                  4,015.45          Compliance                          11          Interns/Detailees/Other                           18
 FTS                                               1,408.66          Open at September 30,
 Postage                                           5,000.00          2009                               477           Clerical staff per professional staff                0.4
 Mail room                                                -
 Messenger services                                2,471.91
 Other directly charged casehandling               1,072.60
 Parking - casehandling                                   -
 Wide area network                                12,541.81
 Database services                                33,883.72
 Summary total                               $ 6,693,395.49
                                                                                   11
                                                       Region 5 – Baltimore (Includes a Resident Office)

                                                                                    Single Agent           Multiple Agent
                      Single Agent       Multiple                                 Cases Production        Cases Production
                          Cases         Agent Cases        Total Cases                  Units                   Units                    Total Units
                        C       R        C      R       C      R     Total                                                                              Total     Cost Per
                      cases cases      cases cases    cases cases Cases           C cases      R cases    C cases   R cases   C cases     R cases       Units      Unit
   Cases w/
   Agents             1,012    147     182      14    1,194    161    1,355      2,103.00      294.00      524.75   29.20     2,627.75     323.20      2,950.95
   Cases w/out                                                                                                                                                    $1,788.54
   Agents                                               3       0       3                                                       5.00        0.00         5.00
   Total              1,012    147     182      14    1,197    161    1,358      2,103.00      294.00      524.75   29.20     2,632.75     323.20      2,955.95

Case Processing Costs                               Amount
                                                                     C Case Resolution                   Total          R Case Resolution                                Total
 Salary and benefits                            4,577,846.29         Pre-Complaint                        803                                  Certification               72
 Rent, security and related space                                                                                       No Hearing
                                                                     Pre-Complaint/                                                            Other                       48
(Without parking)                                431,885.52
                                                                     Compliance                            26                                  Certification                 4
 Parking                                                  -                                                             Pre-Election Hearing
                                                                     After Complaint, Before                                                   Other                         5
 Mileage                                          18,756.92
                                                                     Hearing                               12                                  Certification
 TDY-related travel                               40,537.94                                                             Post-Election Hearing
                                                                     After Complaint, Before                                                   Other
 Car rental - non-GSA                              1,921.42          Hearing/ Compliance                   27           Both Pre- and Post-    Certification                   1
 Car rental - GSA                                  8,121.25          After Hearing, Before                              Election Hearings      Other
 Witness fees and travel                           2,365.20          Board Decision                                     Open at September 30, 2009                            31
 Interpreter and translation                         608.00
                                                                     After Hearing, Before
 Field reporting                                  21,512.00
                                                                     Board Decision/                                   Employee Classification                        Number
 Supplies                                         24,549.35          Compliance                             2          Managers                                            3
 Copier                                           20,328.00          After Board Decision                              Supervisors                                         5
 Computer - amortized                              7,833.31          After Board Decision/                             Board Agents                                       18
 Health units                                      5,383.91          Compliance                             7          Compliance Officers                                 2
 Transit benefits                                 25,071.60          After Court Judgment                              Support Managers                                    1
 Leased telephone lines                           20,992.13          After Court Judgment/                             Support                                            10
 Conference calls                                  4,951.02          Compliance                             7          Interns/Detailees/Other                            22
 FTS                                               1,390.48          Open at September 30,
 Postage                                           9,363.86          2009                                 313           Clerical staff per professional staff                 0.4
 Mail room                                                -
 Messenger services                                3,745.66
 Other directly charged casehandling               3,048.89
 Parking - casehandling                            2,904.00
 Wide area network                                25,083.62
 Database services                                28,626.73
 Summary total                               $ 5,286,827.10
                                                                                   12
                                                                      Region 6 – Pittsburgh

                                                                                 Single Agent           Multiple Agent
                      Single Agent       Multiple                              Cases Production        Cases Production
                          Cases        Agent Cases        Total Cases                Units                   Units                   Total Units
                        C       R        C      R      C     R      Total                                                                            Total    Cost Per
                      cases cases      cases cases   cases cases Cases         C cases      R cases   C cases   R cases    C cases     R cases       Units     Unit
   Cases w/
   Agents             574      37       96    48     670       85   755        1,144.50       74.00    277.91    96.42    1,422.41      170.42     1,592.83
   Cases w/out                                                                                                                                                $2,921.77
   Agents                                             0         0    0                                                      0.00         0.00        0.00
   Total              574      37       96    48     670       85   755        1,144.50       74.00    277.91    96.42    1,422.41      170.42     1,592.83

Case Processing Costs                               Amount
                                                                    C Case Resolution                 Total          R Case Resolution                              Total
 Salary and benefits                            4,102,640.43        Pre-Complaint                      431                                  Certification             35
 Rent, security and related space                                                                                    No Hearing
                                                                    Pre-Complaint/                                                          Other                     26
(Without parking)                                363,564.94
                                                                    Compliance                          25                                  Certification               2
 Parking                                                  -                                                          Pre-Election Hearing
                                                                    After Complaint, Before                                                 Other                       1
 Mileage                                          20,319.76
                                                                    Hearing                             10                                  Certification               1
 TDY-related travel                                6,255.60                                                          Post-Election Hearing
                                                                    After Complaint, Before                                                 Other
 Car rental - non-GSA                                182.67         Hearing/ Compliance                  7           Both Pre- and Post-    Certification
 Car rental - GSA                                 10,624.13         After Hearing, Before                            Election Hearings      Other
 Witness fees and travel                             317.22         Board Decision                                   Open at September 30, 2009                           20
 Interpreter and translation                              -
                                                                    After Hearing, Before
 Field reporting                                   3,781.18
                                                                    Board Decision/                                 Employee Classification                      Number
 Supplies                                         11,421.55         Compliance                                      Managers                                          3
 Copier                                           13,617.84         After Board Decision                 1          Supervisors                                       3
 Computer - amortized                              9,830.89         After Board Decision/                           Board Agents                                     19
 Health units                                      4,287.49         Compliance                           1          Compliance Officers                               1
 Transit benefits                                 17,899.00         After Court Judgment                            Support Managers                                  1
 Leased telephone lines                           25,255.46         After Court Judgment/                           Support                                           6
 Conference calls                                  7,909.56         Compliance                                      Interns/Detailees/Other                           2
 FTS                                                 661.21         Open at September 30,
 Postage                                          10,000.00         2009                               195           Clerical staff per professional staff                0.3
 Mail room                                                -
 Messenger services                                1,049.05
 Other directly charged casehandling               3,135.01
 Parking - casehandling                            5,795.00
 Wide area network                                12,541.81
 Database services                                22,785.63
 Summary total                               $ 4,653,875.43
                                                                                  13
                                                           Region 7 – Detroit (Includes a Resident Office)

                                                                                    Single Agent        Multiple Agent
                     Single Agent        Multiple                                 Cases Production     Cases Production
                         Cases         Agent Cases        Total Cases                   Units                Units                      Total Units
                       C       R         C      R       C     R     Total                                                                              Total       Cost Per
                     cases cases       cases cases    cases cases Cases           C cases    R cases   C cases   R cases     C cases     R cases       Units        Unit
   Cases w/
   Agents            1,547    115      261    47      1,808       162   1,970     3,111.00   230.00    753.47    94.05       3,864.47     324.05      4,188.52
   Cases w/out                                                                                                                                                     $2,015.76
   Agents                                               2          0      2                                                    5.00        0.00         5.00
   Total             1,547    115      261    47      1,810       162   1,972     3,111.00   230.00    753.47    94.05       3,869.47     324.05      4,193.52

Case Processing Costs                                  Amount
                                                                         C Case Resolution              Total              R Case Resolution                               Total
 Salary and benefits                               7,495,851.77          Pre-Complaint                  1,196                                     Certification              59
 Rent, security and related space                                                                                          No Hearing
                                                                         Pre-Complaint/                                                           Other                      56
(Without parking)                                605,378.64
                                                                         Compliance                        39                                     Certification                4
 Parking                                           8,259.12                                                                Pre-Election Hearing
                                                                         After Complaint, Before                                                  Other                      12
 Mileage                                          19,095.80
                                                                         Hearing                           25                                     Certification                7
 TDY-related travel                               12,557.95                                                                Post-Election Hearing
                                                                         After Complaint, Before                                                  Other
 Car rental - non-GSA                                     -              Hearing/ Compliance               59              Both Pre- and Post-    Certification
 Car rental - GSA                                 17,438.59              After Hearing, Before                             Election Hearings      Other
 Witness fees and travel                           6,615.36              Board Decision                     4              Open at September 30, 2009                          24
 Interpreter and translation                         250.00
                                                                         After Hearing, Before
 Field reporting                                  35,651.70
                                                                         Board Decision/                                   Employee Classification                      Number
 Supplies                                         25,864.10              Compliance                         1              Managers                                          3
 Copier                                           23,781.84              After Board Decision                              Supervisors                                       7
 Computer - amortized                             19,720.94              After Board Decision/                             Board Agents                                     38
 Health units                                      7,350.01              Compliance                         7              Compliance Officers                               1
 Transit benefits                                 18,287.00              After Court Judgment               2              Support Managers                                  2
 Leased telephone lines                           54,050.92              After Court Judgment/                             Support                                          19
 Conference calls                                  9,223.97              Compliance                         6              Interns/Detailees/Other                          10
 FTS                                               1,988.10              Open at September 30,
 Postage                                          15,890.70              2009                             471              Clerical staff per professional staff               0.4
 Mail room                                                -
 Messenger services                                4,269.39
 Other directly charged casehandling               2,127.96
 Parking - casehandling                                   -
 Wide area network                                25,083.62
 Database services                                44,397.70
 Summary total                               $ 8,453,135.18
                                                                                       14
                                                                      Region 8 – Cleveland

                                                                                  Single Agent          Multiple Agent
                       Single Agent      Multiple                               Cases Production       Cases Production
                           Cases       Agent Cases        Total Cases                 Units                  Units                    Total Units
                         C       R       C      R      C      R     Total                                                                            Total     Cost Per
                       cases cases     cases cases   cases cases Cases          C cases     R cases    C cases   R cases   C cases     R cases       Units      Unit
   Cases w/
   Agents              991      62     161     20    1,152     82   1,234      1,994.00       124.00   436.78    40.09     2,430.78     164.09      2,594.87
   Cases w/out                                                                                                                                                 $2,109.46
   Agents                                              0        0     0                                                      0.00        0.00         0.00
   Total               991      62     161     20    1,152     82   1,234      1,994.00       124.00   436.78    40.09     2,430.78     164.09      2,594.87

Case Processing Costs                               Amount
                                                                    C Case Resolution                  Total          R Case Resolution                               Total
 Salary and benefits                            4,847,026.04        Pre-Complaint                       709                                  Certification              40
 Rent, security and related space                                                                                     No Hearing
                                                                    Pre-Complaint/                                                           Other                      18
(Without parking)                                421,635.07
                                                                    Compliance                           17                                  Certification                3
 Parking                                             142.68                                                           Pre-Election Hearing
                                                                    After Complaint, Before                                                  Other                        4
 Mileage                                          18,572.50
                                                                    Hearing                              22                                  Certification                1
 TDY-related travel                                7,754.86                                                           Post-Election Hearing
                                                                    After Complaint, Before                                                  Other                        1
 Car rental - non-GSA                              1,083.17         Hearing/ Compliance                  19           Both Pre- and Post-    Certification
 Car rental - GSA                                         -         After Hearing, Before                             Election Hearings      Other
 Witness fees and travel                           1,277.24         Board Decision                        1           Open at September 30, 2009                           15
 Interpreter and translation                              -
                                                                    After Hearing, Before
 Field reporting                                  21,557.00
                                                                    Board Decision/                                   Employee Classification                      Number
 Supplies                                         11,123.07         Compliance                            2           Managers                                          3
 Copier                                           13,617.84         After Board Decision                              Supervisors                                       4
 Computer - amortized                             10,627.22         After Board Decision/                             Board Agents                                     22
 Health units                                      5,512.48         Compliance                            7           Compliance Officers                               1
 Transit benefits                                 19,544.70         After Court Judgment                              Support Managers                                  1
 Leased telephone lines                           38,345.87         After Court Judgment/                             Support                                          12
 Conference calls                                  4,052.49         Compliance                            2           Interns/Detailees/Other                           1
 FTS                                               1,087.17         Open at September 30,
 Postage                                           5,030.18         2009                                373           Clerical staff per professional staff                0.4
 Mail room                                                -
 Messenger services                                1,708.51
 Other directly charged casehandling               2,311.51
 Parking - casehandling                                   -
 Wide area network                                12,541.81
 Database services                                29,210.84
 Summary total                               $ 5,473,762.25
                                                                                  15
                                                                        Region 9 – Cincinnati

                                                                                 Single Agent         Multiple Agent
                     Single Agent        Multiple                              Cases Production      Cases Production
                         Cases         Agent Cases        Total Cases                Units                 Units                       Total Units
                       C       R         C      R      C      R     Total                                                                              Total     Cost Per
                     cases cases       cases cases   cases cases Cases         C cases   R cases     C cases   R cases      C cases     R cases        Units      Unit
   Cases w/
   Agents             986      44      130    36     1,116     80   1,196     1,914.50       88.00   343.56    72.05        2,258.06     160.05      2,418.11
   Cases w/out                                                                                                                                                   $2,312.60
   Agents                                              4       0      4                                                       9.00        0.00         9.00
   Total              986      44      130    36     1,120     80   1,200     1,914.50       88.00   343.56    72.05        2,267.06     160.05      2,427.11

Case Processing Costs                               Amount
                                                                     C Case Resolution                Total              R Case Resolution                              Total
 Salary and benefits                            4,961,881.92         Pre-Complaint                     757                                      Certification             34
 Rent, security and related space                                                                                        No Hearing
                                                                     Pre-Complaint/                                                             Other                     18
(Without parking)                                416,629.20
                                                                     Compliance                          36                                     Certification               1
 Parking                                                  -                                                              Pre-Election Hearing
                                                                     After Complaint, Before                                                    Other                       2
 Mileage                                          26,696.30
                                                                     Hearing                             13                                     Certification               5
 TDY-related travel                               18,991.90                                                              Post-Election Hearing
                                                                     After Complaint, Before                                                    Other
 Car rental - non-GSA                                     -          Hearing/ Compliance                 11              Both Pre- and Post-    Certification
 Car rental - GSA                                  6,006.00          After Hearing, Before                               Election Hearings      Other
 Witness fees and travel                           2,372.57          Board Decision                       1              Open at September 30, 2009                          20
 Interpreter and translation                              -
                                                                     After Hearing, Before
 Field reporting                                  24,724.85
                                                                     Board Decision/                                    Employee Classification                      Number
 Supplies                                         14,216.88          Compliance                           6             Managers                                          3
 Copier                                           13,617.84          After Board Decision                 1             Supervisors                                       4
 Computer - amortized                             11,815.89          After Board Decision/                              Board Agents                                     23
 Health units                                      5,389.99          Compliance                           2             Compliance Officers                               1
 Transit benefits                                 24,440.00          After Court Judgment                               Support Managers                                  1
 Leased telephone lines                           32,504.39          After Court Judgment/                              Support                                          12
 Conference calls                                  7,777.63          Compliance                          24             Interns/Detailees/Other                           7
 FTS                                               1,207.22          Open at September 30,
 Postage                                                  -          2009                               269              Clerical staff per professional staff               0.4
 Mail room                                                -
 Messenger services                                1,206.65
 Other directly charged casehandling                 374.58
 Parking - casehandling                              745.00
 Wide area network                                12,541.81
 Database services                                29,794.95
 Summary total                               $ 5,612,935.57
                                                                                   16
                                                           Region 10 – Atlanta (Includes a Resident Office)

                                                                                     Single Agent          Multiple Agent
                     Single Agent         Multiple                                 Cases Production       Cases Production
                         Cases          Agent Cases          Total Cases                 Units                  Units                      Total Units
                       C       R         C       R        C      R     Total                                                                              Total     Cost Per
                     cases cases       cases cases      cases cases Cases          C cases      R cases   C cases   R cases     C cases      R cases      Units      Unit
   Cases w/
   Agents             854     74        77      2        931       76   1,007     1,702.00      148.00    166.17     4.00       1,868.17     152.00      2,020.17
   Cases w/out                                                                                                                                                      $2,516.80
   Agents                                                 0        1      1                                                       0.00        2.00         2.00
   Total              854     74        77      2        931       77   1,008     1,702.00      148.00    166.17     4.00       1,868.17     154.00      2,022.17

Case Processing Costs                                   Amount
                                                                        C Case Resolution                 Total             R Case Resolution                              Total
 Salary and benefits                                4,588,861.87        Pre-Complaint                      714                                     Certification             38
 Rent, security and related space                                                                                           No Hearing
                                                                        Pre-Complaint/                                                             Other                     23
(Without parking)                                 301,157.25
                                                                        Compliance                           21                                    Certification               1
 Parking                                                   -                                                                Pre-Election Hearing
                                                                        After Complaint, Before                                                    Other
 Mileage                                           13,424.09
                                                                        Hearing                               7                                    Certification                 2
 TDY-related travel                                10,914.23                                                                Post-Election Hearing
                                                                        After Complaint, Before                                                    Other
 Car rental - non-GSA                                      -            Hearing/ Compliance                   5             Both Pre- and Post-    Certification
 Car rental - GSA                                   7,106.24            After Hearing, Before                               Election Hearings      Other
 Witness fees and travel                            1,011.20            Board Decision                        1             Open at September 30, 2009                          13
 Interpreter and translation                          450.00
                                                                        After Hearing, Before
 Field reporting                                   16,321.60
                                                                        Board Decision/                                     Employee Classification                     Number
 Supplies                                           8,838.95            Compliance                            7             Managers                                         3
 Copier                                            17,943.12            After Board Decision                                Supervisors                                      3
 Computer - amortized                              10,616.83            After Board Decision/                               Board Agents                                    19
 Health units                                       3,552.51            Compliance                                          Compliance Officers                              1
 Transit benefits                                  13,382.00            After Court Judgment                                Support Managers                                 1
 Leased telephone lines                            34,346.89            After Court Judgment/                               Support                                         11
 Conference calls                                   7,938.88            Compliance                            3             Interns/Detailees/Other                          -
 FTS                                                  861.12            Open at September 30,
 Postage                                                   -            2009                               173              Clerical staff per professional staff               0.5
 Mail room                                                 -
 Messenger services                                 1,002.16
 Other directly charged casehandling                  722.23
 Parking - casehandling                               150.00
 Wide area network                                 25,083.62
 Database services                                 25,706.18
 Summary total                                $ 5,089,390.97
                                                                                      17
                                                                    Region 11 – Winston-Salem

                                                                                   Single Agent           Multiple Agent
                      Single Agent       Multiple                                Cases Production        Cases Production
                          Cases        Agent Cases         Total Cases                 Units                   Units                    Total Units
                        C       R        C      R      C        R      Total                                                                           Total     Cost Per
                      cases cases      cases cases   cases    cases Cases        C cases      R cases    C cases   R cases   C cases     R cases       Units      Unit
   Cases w/
   Agents              663      30      71     22     734      52      786       1,172.00     60.00       200.48   44.05     1,372.48     104.05      1,476.53
   Cases w/out                                                                                                                                                   $2,035.81
   Agents                                              0        0       0                                                      0.00        0.00         0.00
   Total               663      30      71     22     734      52      786       1,172.00     60.00       200.48   44.05     1,372.48     104.05      1,476.53

Case Processing Costs                               Amount
                                                                    C Case Resolution                   Total          R Case Resolution                               Total
 Salary and benefits                            2,703,442.18        Pre-Complaint                        435                                  Certification              21
 Rent, security and related space                                                                                      No Hearing
                                                                    Pre-Complaint/                                                            Other                      19
(Without parking)                                126,153.17
                                                                    Compliance                            27                                  Certification                4
 Parking                                                  -                                                            Pre-Election Hearing
                                                                    After Complaint, Before                                                   Other
 Mileage                                          31,159.96
                                                                    Hearing                               18                                  Certification
 TDY-related travel                               32,365.19                                                            Post-Election Hearing
                                                                    After Complaint, Before                                                   Other
 Car rental - non-GSA                                     -         Hearing/ Compliance                   11           Both Pre- and Post-    Certification
 Car rental - GSA                                  2,871.24         After Hearing, Before                              Election Hearings      Other
 Witness fees and travel                             139.03         Board Decision                         5           Open at September 30, 2009                             8
 Interpreter and translation                       1,438.27
                                                                    After Hearing, Before
 Field reporting                                     844.14
                                                                    Board Decision/                                   Employee Classification                       Number
 Supplies                                         11,145.92         Compliance                            14          Managers                                           3
 Copier                                           10,164.00         After Board Decision                              Supervisors                                        2
 Computer - amortized                              6,864.56         After Board Decision/                             Board Agents                                      12
 Health units                                             -         Compliance                                        Compliance Officers                                1
 Transit benefits                                         -         After Court Judgment                              Support Managers                                   1
 Leased telephone lines                           38,915.46         After Court Judgment/                             Support                                            4
 Conference calls                                  8,317.63         Compliance                            16          Interns/Detailees/Other                            7
 FTS                                                 972.80         Open at September 30,
 Postage                                             400.00         2009                                 208           Clerical staff per professional staff                 0.3
 Mail room                                                -
 Messenger services                                  764.72
 Other directly charged casehandling                 489.83
 Parking - casehandling                                   -
 Wide area network                                12,541.81
 Database services                                16,944.53
 Summary total                               $ 3,005,934.44
                                                                                  18
                                                      Region 12 – Tampa (Includes two Resident Offices)

                                                                                  Single Agent            Multiple Agent
                     Single Agent        Multiple                               Cases Production         Cases Production
                         Cases          Agent Cases        Total Cases                Units                    Units                   Total Units
                       C       R         C      R       C      R     Total                                                                            Total     Cost Per
                     cases cases       cases cases    cases cases Cases         C cases       R cases   C cases   R cases   C cases     R cases       Units      Unit
   Cases w/
   Agents             660      60      228     17     888      77    965        1,337.50      120.00     558.99    38.03    1,896.49     158.03      2,054.52
   Cases w/out                                                                                                                                                  $2,399.03
   Agents                                             41        0    41                                                      16.50        0.00        16.50
   Total              660      60      228     17     929      77   1,006       1,337.50      120.00     558.99    38.03    1,912.99     158.03      2,071.02

Case Processing Costs                               Amount
                                                                    C Case Resolution                   Total          R Case Resolution                               Total
 Salary and benefits                            4,189,732.50        Pre-Complaint                        578                                  Certification              31
 Rent, security and related space                                                                                      No Hearing
                                                                    Pre-Complaint/                                                            Other                      20
(Without parking)                                501,125.50
                                                                    Compliance                            16                                  Certification                6
 Parking                                                  -                                                            Pre-Election Hearing
                                                                    After Complaint, Before                                                   Other                        4
 Mileage                                          14,694.45
                                                                    Hearing                                2                                  Certification                1
 TDY-related travel                               22,972.70                                                            Post-Election Hearing
                                                                    After Complaint, Before                                                   Other
 Car rental - non-GSA                                 47.35         Hearing/ Compliance                   31           Both Pre- and Post-    Certification
 Car rental - GSA                                  5,230.44         After Hearing, Before                              Election Hearings      Other
 Witness fees and travel                             889.88         Board Decision                                     Open at September 30, 2009                           15
 Interpreter and translation                       8,421.98
                                                                    After Hearing, Before
 Field reporting                                  26,605.00
                                                                    Board Decision/                                    Employee Classification                      Number
 Supplies                                         15,360.23         Compliance                             1           Managers                                          3
 Copier                                           30,492.00         After Board Decision                               Supervisors                                       4
 Computer - amortized                              8,695.17         After Board Decision/                              Board Agents                                     19
 Health units                                      5,702.48         Compliance                                         Compliance Officers                               1
 Transit benefits                                 12,285.00         After Court Judgment                               Support Managers                                  2
 Leased telephone lines                           37,605.15         After Court Judgment/                              Support                                           7
 Conference calls                                 13,718.54         Compliance                                         Interns/Detailees/Other                          15
 FTS                                               1,608.77         Open at September 30,
 Postage                                           5,001.00         2009                                 301           Clerical staff per professional staff                0.3
 Mail room                                                -
 Messenger services                                4,372.27
 Other directly charged casehandling               1,706.99
 Parking - casehandling                                   -
 Wide area network                                37,625.43
 Database services                                24,537.96
 Summary total                               $ 4,968,430.79
                                                                                  19
                                                                           Region 13 – Chicago

                                                                                       Single Agent           Multiple Agent
                     Single Agent        Multiple                                    Cases Production        Cases Production
                         Cases         Agent Cases           Total Cases                   Units                   Units                    Total Units
                       C       R         C      R        C        R      Total                                                                             Total     Cost Per
                     cases cases       cases cases     cases    cases Cases         C cases       R cases    C cases   R cases   C cases     R cases       Units      Unit
   Cases w/
   Agents             957     136      180    30       1,137      166   1,303       1,954.00      272.00     570.80    60.05     2,524.80     332.05      2,856.85
   Cases w/out                                                                                                                                                       $2,444.98
   Agents                                                7         0      7                                                       10.00        0.00        10.00
   Total              957     136      180    30       1,144      166   1,310       1,954.00      272.00     570.80    60.05     2,534.80     332.05      2,866.85

Case Processing Costs                                  Amount
                                                                        C Case Resolution                   Total          R Case Resolution                               Total
 Salary and benefits                               5,985,454.11         Pre-Complaint                        700                                  Certification              66
 Rent, security and related space                                                                                          No Hearing
                                                                        Pre-Complaint/                                                            Other                      53
(Without parking)                                 790,471.07
                                                                        Compliance                            59                                  Certification                5
 Parking                                                   -                                                               Pre-Election Hearing
                                                                        After Complaint, Before                                                   Other                        3
 Mileage                                            3,446.77
                                                                        Hearing                               26                                  Certification                9
 TDY-related travel                                 4,830.90                                                               Post-Election Hearing
                                                                        After Complaint, Before                                                   Other                        2
 Car rental - non-GSA                                      -            Hearing/ Compliance                   38           Both Pre- and Post-    Certification
 Car rental - GSA                                   4,066.69            After Hearing, Before                              Election Hearings      Other
 Witness fees and travel                              800.73            Board Decision                         1           Open at September 30, 2009                            28
 Interpreter and translation                        2,969.71
                                                                        After Hearing, Before
 Field reporting                                   17,343.50
                                                                        Board Decision/                                    Employee Classification                       Number
 Supplies                                          16,666.90            Compliance                             4           Managers                                           3
 Copier                                            13,617.84            After Board Decision                               Supervisors                                        5
 Computer - amortized                              15,568.56            After Board Decision/                              Board Agents                                      28
 Health units                                       6,369.98            Compliance                             6           Compliance Officers                                1
 Transit benefits                                  52,690.00            After Court Judgment                               Support Managers                                   1
 Leased telephone lines                            27,651.61            After Court Judgment/                              Support                                           15
 Conference calls                                   5,201.76            Compliance                             2           Interns/Detailees/Other                            9
 FTS                                                  907.31            Open at September 30,
 Postage                                            7,500.00            2009                                 308           Clerical staff per professional staff                 0.4
 Mail room                                                 -
 Messenger services                                 1,480.28
 Other directly charged casehandling                5,354.35
 Parking - casehandling                                    -
 Wide area network                                 12,541.81
 Database services                                 34,467.83
 Summary total                                $ 7,009,401.71
                                                                                      20
                                                         Region 14 – Saint Louis (Includes a Subregion)

                                                                                    Single Agent           Multiple Agent
                     Single Agent        Multiple                                 Cases Production        Cases Production
                         Cases         Agent Cases         Total Cases                  Units                   Units                    Total Units
                       C       R         C      R      C        R      Total                                                                            Total     Cost Per
                     cases cases       cases cases   cases    cases    Cases     C cases       R cases    C cases   R cases   C cases      R cases      Units      Unit
   Cases w/
   Agents            886      81       142    49     1,028     130    1,158      1,712.50      162.00     412.78    97.38     2,125.28     259.38      2,384.66
   Cases w/out                                                                                                                                                    $2,072.29
   Agents                                              3        0       3                                                       4.00        0.00         4.00
   Total             886      81       142    49     1,031     130    1,161      1,712.50      162.00     412.78    97.38     2,129.28     259.38      2,388.66

Case Processing Costs                               Amount
                                                                     C Case Resolution                   Total          R Case Resolution                               Total
 Salary and benefits                            4,330,155.91         Pre-Complaint                        670                                  Certification              64
 Rent, security and related space                                                                                       No Hearing
                                                                     Pre-Complaint/                                                            Other                      35
(Without parking)                                421,111.56
                                                                     Compliance                            23                                  Certification                4
 Parking                                             762.84                                                             Pre-Election Hearing
                                                                     After Complaint, Before                                                   Other                        5
 Mileage                                          11,220.95
                                                                     Hearing                               31                                  Certification
 TDY-related travel                                5,879.75                                                             Post-Election Hearing
                                                                     After Complaint, Before                                                   Other
 Car rental - non-GSA                                     -          Hearing/ Compliance                   10           Both Pre- and Post-    Certification                   1
 Car rental - GSA                                  2,714.58          After Hearing, Before                              Election Hearings      Other
 Witness fees and travel                           4,746.81          Board Decision                         1           Open at September 30, 2009                            21
 Interpreter and translation                              -
                                                                     After Hearing, Before
 Field reporting                                  12,792.19
                                                                     Board Decision/                                   Employee Classification                        Number
 Supplies                                         13,603.28          Compliance                             4          Managers                                            4
 Copier                                           27,235.68          After Board Decision                              Supervisors                                         3
 Computer - amortized                              9,822.58          After Board Decision/                             Board Agents                                       18
 Health units                                      3,062.47          Compliance                             2          Compliance Officers                                 2
 Transit benefits                                  9,954.00          After Court Judgment                              Support Managers                                    2
 Leased telephone lines                           34,823.86          After Court Judgment/                             Support                                            10
 Conference calls                                  7,892.99          Compliance                             1          Interns/Detailees/Other                             5
 FTS                                                 564.11          Open at September 30,
 Postage                                                  -          2009                                 289           Clerical staff per professional staff                 0.4
 Mail room                                                -
 Messenger services                                  786.45
 Other directly charged casehandling                 312.84
 Parking - casehandling                                   -
 Wide area network                                25,083.62
 Database services                                27,458.51
 Summary total                               $ 4,949,984.98
                                                                                   21
                                                                     Region 15 – New Orleans

                                                                                 Single Agent          Multiple Agent
                      Single Agent       Multiple                              Cases Production       Cases Production
                          Cases        Agent Cases        Total Cases                Units                  Units                     Total Units
                        C       R        C      R      C       R     Total                                                                            Total     Cost Per
                      cases cases      cases cases   cases cases Cases         C cases      R cases   C cases   R cases     C cases     R cases       Units      Unit
    Cases w/
    Agents             587      21     210     43     797      64    861       1,232.50       42.00   440.83    84.64      1,673.33      126.64      1,799.97
    Cases w/out                                                                                                                                                 $1,656.43
    Agents                                             8        0     8                                                     14.00         0.00        14.00
    Total              587      21     210     43     805      64    869       1,232.50       42.00   440.83    84.64      1,687.33      126.64      1,813.97

Case Processing Costs                               Amount
                                                                    C Case Resolution                 Total             R Case Resolution                              Total
 Salary and benefits                            2,599,894.45        Pre-Complaint                      464                                     Certification             29
 Rent, security and related space                                                                                       No Hearing
                                                                    Pre-Complaint/                                                             Other                     17
(Without parking)                                234,567.57
                                                                    Compliance                            9                                    Certification               2
 Parking                                             787.50                                                             Pre-Election Hearing
                                                                    After Complaint, Before                                                    Other                       3
 Mileage                                           2,046.51
                                                                    Hearing                             17                                     Certification               1
 TDY-related travel                               31,773.78                                                             Post-Election Hearing
                                                                    After Complaint, Before                                                    Other
 Car rental - non-GSA                                341.69         Hearing/ Compliance                 23              Both Pre- and Post-    Certification
 Car rental - GSA                                 16,082.59         After Hearing, Before                               Election Hearings      Other
 Witness fees and travel                           1,158.05         Board Decision                                      Open at September 30, 2009                          12
 Interpreter and translation                              -
                                                                    After Hearing, Before
 Field reporting                                   9,542.37
                                                                    Board Decision/                                  Employee Classification                         Number
 Supplies                                         10,157.85         Compliance                                       Managers                                             2
 Copier                                           13,617.84         After Board Decision                             Supervisors                                          1
 Computer - amortized                              6,690.39         After Board Decision/                            Board Agents                                        12
 Health units                                      2,572.53         Compliance                                       Compliance Officers                                  1
 Transit benefits                                  4,300.50         After Court Judgment                             Support Managers                                     1
 Leased telephone lines                           25,642.29         After Court Judgment/                            Support                                              7
 Conference calls                                  6,260.16         Compliance                                       Interns/Detailees/Other                             15
 FTS                                                 865.86         Open at September 30,
 Postage                                           4,001.00         2009                               292              Clerical staff per professional staff               0.5
 Mail room                                                -
 Messenger services                                2,143.66
 Other directly charged casehandling               2,196.42
 Parking - casehandling                                   -
 Wide area network                                12,541.81
 Database services                                17,528.64
 Summary total                               $ 3,004,713.46
                                                                                  22
                                                     Region 16 – Fort Worth (Includes two Resident Offices)

                                                                                    Single Agent           Multiple Agent
                      Single Agent       Multiple                                 Cases Production        Cases Production
                          Cases        Agent Cases         Total Cases                  Units                   Units                    Total Units
                        C       R        C      R       C      R       Total                                                                            Total     Cost Per
                      cases cases      cases cases    cases cases Cases          C cases       R cases    C cases   R cases   C cases     R cases       Units      Unit
   Cases w/
   Agents              819     50      265    24      1,084    74     1,158      1,544.50      100.00      602.52   47.06     2,147.02     147.06      2,294.08
   Cases w/out                                                                                                                                                    $1,813.38
   Agents                                               0       0       0                                                       0.00        0.00         0.00
   Total               819     50      265    24      1,084    74     1,158      1,544.50      100.00      602.52   47.06     2,147.02     147.06      2,294.08

Case Processing Costs                               Amount
                                                                     C Case Resolution                   Total         R Case Resolution                                 Total
 Salary and benefits                            3,511,786.01         Pre-Complaint                        619                                 Certification                35
 Rent, security and related space                                                                                      No Hearing
                                                                     Pre-Complaint/                                                           Other                        15
(Without parking)                                418,654.14
                                                                     Compliance                            59                                 Certification                  3
 Parking                                             328.44                                                            Pre-Election Hearing
                                                                     After Complaint, Before                                                  Other                          1
 Mileage                                          20,198.26
                                                                     Hearing                               20                                 Certification                  3
 TDY-related travel                               16,852.34                                                            Post-Election Hearing
                                                                     After Complaint, Before                                                  Other
 Car rental - non-GSA                                696.88          Hearing/ Compliance                    9          Both Pre- and Post-    Certification
 Car rental - GSA                                         -          After Hearing, Before                             Election Hearings      Other
 Witness fees and travel                           1,496.17          Board Decision                         1          Open at September 30, 2009                             17
 Interpreter and translation                         720.50
                                                                     After Hearing, Before
 Field reporting                                  10,410.80
                                                                     Board Decision/                                   Employee Classification                        Number
 Supplies                                         15,048.30          Compliance                                        Managers                                            3
 Copier                                           40,853.52          After Board Decision                              Supervisors                                         4
 Computer - amortized                              3,904.03          After Board Decision/                             Board Agents                                       14
 Health units                                      5,150.95          Compliance                             2          Compliance Officers                                 1
 Transit benefits                                  6,528.00          After Court Judgment                              Support Managers                                    2
 Leased telephone lines                           24,506.20          After Court Judgment/                             Support                                             9
 Conference calls                                 18,276.44          Compliance                             1          Interns/Detailees/Other                            14
 FTS                                                 911.17          Open at September 30,
 Postage                                              28.72          2009                                 373           Clerical staff per professional staff                 0.5
 Mail room                                                -
 Messenger services                                1,528.36
 Other directly charged casehandling                 589.99
 Parking - casehandling                                   -
 Wide area network                                37,625.43
 Database services                                23,953.85
 Summary total                               $ 4,160,048.50
                                                                                   23
                                                     Region 17 – Overland Park (Includes a Resident Office)

                                                                                    Single Agent           Multiple Agent
                       Single Agent      Multiple                                 Cases Production        Cases Production
                           Cases       Agent Cases         Total Cases                  Units                   Units                    Total Units
                         C       R       C      R       C      R       Total                                                                            Total     Cost Per
                       cases cases     cases cases    cases cases Cases           C cases      R cases    C cases   R cases   C cases     R cases       Units      Unit
    Cases w/
    Agents             493      78     132     15      625     93      718        885.50       156.00      327.54   30.01     1,213.04     186.01      1,399.05
    Cases w/out                                                                                                                                                   $2,253.17
    Agents                                              1      0        1                                                       2.00        0.00         2.00
    Total              493      78     132     15      626     93      719        885.50       156.00      327.54   30.01     1,215.04     186.01      1,401.05

Case Processing Costs                               Amount
                                                                     C Case Resolution                   Total          R Case Resolution                                Total
 Salary and benefits                            2,682,616.53         Pre-Complaint                        434                                  Certification               41
 Rent, security and related space                                                                                       No Hearing
                                                                     Pre-Complaint/                                                            Other                       35
(Without parking)                                243,696.70
                                                                     Compliance                            15                                  Certification
 Parking                                                  -                                                             Pre-Election Hearing
                                                                     After Complaint, Before                                                   Other                           2
 Mileage                                          14,631.46
                                                                     Hearing                               10                                  Certification                   1
 TDY-related travel                               17,023.42                                                             Post-Election Hearing
                                                                     After Complaint, Before                                                   Other
 Car rental - non-GSA                                     -          Hearing/ Compliance                    8           Both Pre- and Post-    Certification
 Car rental - GSA                                  7,763.37          After Hearing, Before                              Election Hearings      Other
 Witness fees and travel                           1,136.27          Board Decision                                     Open at September 30, 2009                            14
 Interpreter and translation                         557.00
                                                                     After Hearing, Before
 Field reporting                                  11,583.27
                                                                     Board Decision/                                    Employee Classification                       Number
 Supplies                                         11,743.14          Compliance                             9           Managers                                           2
 Copier                                           21,396.96          After Board Decision                               Supervisors                                        3
 Computer - amortized                              7,398.67          After Board Decision/                              Board Agents                                      13
 Health units                                      2,695.00          Compliance                             9           Compliance Officers                                1
 Transit benefits                                         -          After Court Judgment                               Support Managers                                   1
 Leased telephone lines                           71,282.82          After Court Judgment/                              Support                                            5
 Conference calls                                 12,097.03          Compliance                            13           Interns/Detailees/Other                            2
 FTS                                                 958.16          Open at September 30,
 Postage                                           5,000.00          2009                                 128           Clerical staff per professional staff                 0.3
 Mail room                                                -
 Messenger services                                  361.53
 Other directly charged casehandling               1,087.46
 Parking - casehandling                                   -
 Wide area network                                25,083.62
 Database services                                18,696.86
 Summary total                               $ 3,156,809.27
                                                                                   24
                                                     Region 18 – Minneapolis (Includes a Resident Office)

                                                                                    Single Agent           Multiple Agent
                      Single Agent       Multiple                                 Cases Production        Cases Production
                          Cases        Agent Cases         Total Cases                  Units                   Units                    Total Units
                        C       R        C      R      C        R      Total                                                                            Total     Cost Per
                      cases cases      cases cases   cases    cases Cases         C cases      R cases    C cases   R cases   C cases     R cases       Units      Unit
    Cases w/
    Agents            458      95       44    13     502       108     610        954.00       190.00     107.84    27.00     1,061.84     217.00      1,278.84
    Cases w/out                                                                                                                                                   $2,773.28
    Agents                                            0         0       0                                                       0.00        0.00         0.00
    Total             458      95       44    13     502       108     610        954.00       190.00     107.84    27.00     1,061.84     217.00      1,278.84

Case Processing Costs                               Amount
                                                                     C Case Resolution                   Total          R Case Resolution                                Total
 Salary and benefits                            2,979,114.98         Pre-Complaint                        337                                  Certification               57
 Rent, security and related space                                                                                       No Hearing
                                                                     Pre-Complaint/                                                            Other                       33
(Without parking)                                376,028.64
                                                                     Compliance                            18                                  Certification                 2
 Parking                                               4.32                                                             Pre-Election Hearing
                                                                     After Complaint, Before                                                   Other                         2
 Mileage                                          14,900.69
                                                                     Hearing                                3                                  Certification                 2
 TDY-related travel                               19,653.19                                                             Post-Election Hearing
                                                                     After Complaint, Before                                                   Other
 Car rental - non-GSA                                239.18          Hearing/ Compliance                   17           Both Pre- and Post-    Certification
 Car rental - GSA                                  4,700.00          After Hearing, Before                              Election Hearings      Other
 Witness fees and travel                           1,396.78          Board Decision                                     Open at September 30, 2009                            12
 Interpreter and translation                       4,508.18
                                                                     After Hearing, Before
 Field reporting                                  20,694.27
                                                                     Board Decision/                                    Employee Classification                       Number
 Supplies                                          6,923.09          Compliance                             2           Managers                                           2
 Copier                                           20,328.00          After Board Decision                               Supervisors                                        3
 Computer - amortized                                891.00          After Board Decision/                              Board Agents                                      11
 Health units                                      6,468.94          Compliance                                         Compliance Officers                                1
 Transit benefits                                 13,595.00          After Court Judgment                               Support Managers                                   1
 Leased telephone lines                           19,755.82          After Court Judgment/                              Support                                            6
 Conference calls                                 11,999.43          Compliance                                         Interns/Detailees/Other                            8
 FTS                                                 372.16          Open at September 30,
 Postage                                                  -          2009                                 125           Clerical staff per professional staff                 0.4
 Mail room                                                -
 Messenger services                                1,475.96
 Other directly charged casehandling                 917.38
 Parking - casehandling                                   -
 Wide area network                                25,083.62
 Database services                                17,528.64
 Summary total                               $ 3,546,579.27
                                                                                   25
                                               Region 19 – Seattle (Includes a Subregion and Resident Office)

                                                                                     Single Agent           Multiple Agent
                      Single Agent       Multiple                                  Cases Production        Cases Production
                          Cases        Agent Cases        Total Cases                    Units                   Units                    Total Units
                        C       R        C      R      C     R       Total                                                                               Total     Cost Per
                      cases cases      cases cases   cases cases     Cases         C cases     R cases     C cases   R cases   C cases     R cases       Units      Unit
   Cases w/
   Agents             1,085    174     242    93     1,327     267    1,594       2,208.50     348.00      683.95    185.22    2,892.45     533.22      3,425.67
   Cases w/out                                                                                                                                                     $1,932.61
   Agents                                              1        0       1                                                        2.00        0.00         2.00
   Total              1,085    174     242    93     1,328     267    1,595       2,208.50     348.00      683.95    185.22    2,894.45     533.22      3,427.67

Case Processing Costs                               Amount
                                                                     C Case Resolution                   Total          R Case Resolution                                 Total
 Salary and benefits                            5,508,272.93         Pre-Complaint                        860                                  Certification               113
 Rent, security and related space                                                                                       No Hearing
                                                                     Pre-Complaint/                                                            Other                        98
(Without parking)                                692,235.91
                                                                     Compliance                            47                                  Certification                16
 Parking                                             545.16                                                             Pre-Election Hearing
                                                                     After Complaint, Before                                                   Other                          7
 Mileage                                          11,715.22
                                                                     Hearing                               36                                  Certification
 TDY-related travel                               48,668.34                                                             Post-Election Hearing
                                                                     After Complaint, Before                                                   Other                            2
 Car rental - non-GSA                              5,535.25          Hearing/ Compliance                   36           Both Pre- and Post-    Certification                    1
 Car rental - GSA                                  8,553.84          After Hearing, Before                              Election Hearings      Other
 Witness fees and travel                           1,397.20          Board Decision                                     Open at September 30, 2009                             30
 Interpreter and translation                       8,546.50
                                                                     After Hearing, Before
 Field reporting                                  69,055.80
                                                                     Board Decision/                                    Employee Classification                        Number
 Supplies                                         27,127.45          Compliance                             3           Managers                                            4
 Copier                                           34,065.84          After Board Decision                               Supervisors                                         5
 Computer - amortized                              8,899.06          After Board Decision/                              Board Agents                                       25
 Health units                                      5,811.28          Compliance                             1           Compliance Officers                                 1
 Transit benefits                                 40,034.00          After Court Judgment                               Support Managers                                    2
 Leased telephone lines                           30,748.84          After Court Judgment/                              Support                                            10
 Conference calls                                 10,085.68          Compliance                             2           Interns/Detailees/Other                             6
 FTS                                              22,179.38          Open at September 30,
 Postage                                          13,624.15          2009                                 343            Clerical staff per professional staff                 0.3
 Mail room                                                -
 Messenger services                                2,007.01
 Other directly charged casehandling               5,324.33
 Parking - casehandling                              741.00
 Wide area network                                37,625.43
 Database services                                31,547.28
 Summary total                               $ 6,624,346.88
                                                                                   26
                                                       Region 20 – San Francisco (Includes a Subregion)

                                                                                     Single Agent           Multiple Agent
                      Single Agent       Multiple                                  Cases Production        Cases Production
                          Cases        Agent Cases         Total Cases                   Units                   Units                    Total Units
                        C       R        C      R      C       R       Total                                                                             Total     Cost Per
                      cases cases      cases cases   cases   cases    Cases        C cases     R cases     C cases   R cases    C cases     R cases      Units      Unit
   Cases w/
   Agents             1,243    120     209    41     1,452     161    1,613       2,421.00     240.00      572.28    93.04     2,993.28     333.04      3,326.32
   Cases w/out                                                                                                                                                     $1,921.95
   Agents                                              1        0       1                                                        2.00        0.00         2.00
   Total              1,243    120     209    41     1,453     161    1,614       2,421.00     240.00      572.28    93.04     2,995.28     333.04      3,328.32

Case Processing Costs                               Amount
                                                                     C Case Resolution                   Total          R Case Resolution                                Total
 Salary and benefits                            5,539,766.40         Pre-Complaint                        883                                  Certification               28
 Rent, security and related space                                                                                       No Hearing
                                                                     Pre-Complaint/                                                            Other                       59
(Without parking)                                614,479.73
                                                                     Compliance                            56                                  Certification                 4
 Parking                                             218.28                                                             Pre-Election Hearing
                                                                     After Complaint, Before                                                   Other                         2
 Mileage                                           6,923.77
                                                                     Hearing                               14                                  Certification
 TDY-related travel                               17,916.96                                                             Post-Election Hearing
                                                                     After Complaint, Before                                                   Other
 Car rental - non-GSA                                270.45          Hearing/ Compliance                   23           Both Pre- and Post-    Certification                    1
 Car rental - GSA                                  6,751.57          After Hearing, Before                              Election Hearings      Other
 Witness fees and travel                           1,725.44          Board Decision                                     Open at September 30, 2009                             67
 Interpreter and translation                       4,330.00
                                                                     After Hearing, Before
 Field reporting                                  43,312.07
                                                                     Board Decision/                                    Employee Classification                        Number
 Supplies                                         12,140.43          Compliance                                         Managers                                            4
 Copier                                           23,781.84          After Board Decision                               Supervisors                                         4
 Computer - amortized                             12,585.03          After Board Decision/                              Board Agents                                       23
 Health units                                      6,189.79          Compliance                             5           Compliance Officers                                 1
 Transit benefits                                 30,039.00          After Court Judgment                               Support Managers                                    2
 Leased telephone lines                           13,320.93          After Court Judgment/                              Support                                             9
 Conference calls                                  3,785.29          Compliance                             5           Interns/Detailees/Other                            10
 FTS                                                 636.94          Open at September 30,
 Postage                                                  -          2009                                 467            Clerical staff per professional staff                 0.3
 Mail room                                                -
 Messenger services                                2,532.50
 Other directly charged casehandling               1,870.04
 Parking - casehandling                                   -
 Wide area network                                25,083.62
 Database services                                29,210.84
 Summary total                               $ 6,396,870.92
                                                                                   27
                                                     Region 21 – Los Angeles (Includes a Resident Office)

                                                                                   Single Agent          Multiple Agent
                     Single Agent        Multiple                                Cases Production       Cases Production
                         Cases         Agent Cases        Total Cases                  Units                  Units                     Total Units
                       C       R         C      R      C      R      Total                                                                             Total     Cost Per
                     cases cases       cases cases   cases cases Cases           C cases     R cases     C cases   R cases   C cases      R cases      Units      Unit
   Cases w/
   Agents             892     108      135    33     1,027     141   1,168      1,823.00       216.00    382.53    65.03     2,205.53     281.03      2,486.56
   Cases w/out                                                                                                                                                   $1,982.06
   Agents                                              4        0      4                                                       8.50        0.00         8.50
   Total              892     108      135    33     1,031     141   1,172      1,823.00       216.00    382.53    65.03     2,214.03     281.03      2,495.06

Case Processing Costs                               Amount
                                                                     C Case Resolution                  Total          R Case Resolution                                Total
 Salary and benefits                            3,997,718.04         Pre-Complaint                       640                                  Certification               53
 Rent, security and related space                                                                                      No Hearing
                                                                     Pre-Complaint/                                                           Other                       33
(Without parking)                                653,912.08
                                                                     Compliance                           31                                  Certification               10
 Parking                                                  -                                                            Pre-Election Hearing
                                                                     After Complaint, Before                                                  Other                         7
 Mileage                                           7,093.63
                                                                     Hearing                              10                                  Certification                 2
 TDY-related travel                               14,886.44                                                            Post-Election Hearing
                                                                     After Complaint, Before                                                  Other
 Car rental - non-GSA                                     -          Hearing/ Compliance                  24           Both Pre- and Post-    Certification                   1
 Car rental - GSA                                  7,552.88          After Hearing, Before                             Election Hearings      Other
 Witness fees and travel                           2,383.23          Board Decision                        3           Open at September 30, 2009                            35
 Interpreter and translation                      13,785.60
                                                                     After Hearing, Before
 Field reporting                                  34,308.05
                                                                     Board Decision/                                   Employee Classification                       Number
 Supplies                                         17,743.56          Compliance                           11           Managers                                           3
 Copier                                           23,901.84          After Board Decision                  2           Supervisors                                        4
 Computer - amortized                             10,164.44          After Board Decision/                             Board Agents                                      19
 Health units                                      4,777.48          Compliance                            8           Compliance Officers                                1
 Transit benefits                                 20,464.00          After Court Judgment                              Support Managers                                   -
 Leased telephone lines                           59,789.17          After Court Judgment/                             Support                                            8
 Conference calls                                  7,938.88          Compliance                            7           Interns/Detailees/Other                            6
 FTS                                               5,709.77          Open at September 30,
 Postage                                           4,260.79          2009                                295            Clerical staff per professional staff                0.3
 Mail room                                                -
 Messenger services                                3,384.55
 Other directly charged casehandling               5,960.82
 Parking - casehandling                                   -
 Wide area network                                25,083.62
 Database services                                24,537.96
 Summary total                               $ 4,945,356.83
                                                                                   28
                                                                        Region 22 – Newark

                                                                                   Single Agent         Multiple Agent
                      Single Agent       Multiple                                Cases Production      Cases Production
                          Cases        Agent Cases        Total Cases                  Units                 Units                     Total Units
                        C       R        C      R      C      R     Total                                                                              Total     Cost Per
                      cases cases      cases cases   cases cases Cases           C cases     R cases   C cases   R cases     C cases     R cases       Units      Unit
   Cases w/
   Agents              889     208     163     9     1,052     217   1,269      1,764.00     416.00    442.22    18.69      2,206.22      434.69      2,640.91
   Cases w/out                                                                                                                                                   $2,142.79
   Agents                                              9        4     13                                                     17.50         8.00        25.50
   Total               889     208     163     9     1,061     221   1,282      1,764.00     416.00    442.22    18.69      2,223.72      442.69      2,666.41

Case Processing Costs                               Amount
                                                                     C Case Resolution                 Total          R Case Resolution                                 Total
 Salary and benefits                            4,965,746.25         Pre-Complaint                      717                                  Certification                62
 Rent, security and related space                                                                                     No Hearing
                                                                     Pre-Complaint/                                                          Other                        62
(Without parking)                                552,342.98
                                                                     Compliance                          25                                  Certification                  5
 Parking                                                  -                                                           Pre-Election Hearing
                                                                     After Complaint, Before                                                 Other                          1
 Mileage                                           4,967.48
                                                                     Hearing                             16                                  Certification                  1
 TDY-related travel                                3,777.31                                                           Post-Election Hearing
                                                                     After Complaint, Before                                                 Other
 Car rental - non-GSA                                     -          Hearing/ Compliance                  2           Both Pre- and Post-    Certification
 Car rental - GSA                                  3,747.12          After Hearing, Before                            Election Hearings      Other                            1
 Witness fees and travel                              17.35          Board Decision                                   Open at September 30, 2009                             89
 Interpreter and translation                      18,449.59
                                                                     After Hearing, Before
 Field reporting                                  17,535.85
                                                                     Board Decision/                                  Employee Classification                        Number
 Supplies                                         20,325.95          Compliance                           7           Managers                                            3
 Copier                                           13,617.84          After Board Decision                             Supervisors                                         4
 Computer - amortized                             11,403.11          After Board Decision/                            Board Agents                                       20
 Health units                                      5,006.49          Compliance                           7           Compliance Officers                                 1
 Transit benefits                                 20,015.00          After Court Judgment                             Support Managers                                    1
 Leased telephone lines                           20,812.80          After Court Judgment/                            Support                                            11
 Conference calls                                  4,408.68          Compliance                           5           Interns/Detailees/Other                             5
 FTS                                                 855.03          Open at September 30,
 Postage                                           8,000.00          2009                               282              Clerical staff per professional staff               0.4
 Mail room                                                -
 Messenger services                                  818.06
 Other directly charged casehandling               1,984.82
 Parking - casehandling                              899.98
 Wide area network                                12,541.81
 Database services                                26,290.29
 Summary total                               $ 5,713,563.79
                                                                                   29
                                                                      Region 24 – Hato Rey

                                                                                  Single Agent         Multiple Agent
                        Single Agent     Multiple                               Cases Production      Cases Production
                            Cases      Agent Cases        Total Cases                 Units                 Units                      Total Units
                          C       R      C      R       C     R     Total                                                                              Total    Cost Per
                        cases cases    cases cases    cases cases Cases         C cases     R cases   C cases   R cases     C cases      R cases       Units     Unit
    Cases w/
    Agents               417     55    137       5     554     60    614        857.00      110.00    372.98    10.01       1,229.98     120.01      1,349.99
    Cases w/out                                                                                                                                                 $1,857.10
    Agents                                              10     0     10                                                      13.00        0.00        13.00
    Total                417     55    137       5     564     60    624        857.00      110.00    372.98    10.01       1,242.98     120.01      1,362.99

Case Processing Costs                               Amount
                                                                    C Case Resolution                 Total          R Case Resolution                                 Total
 Salary and benefits                            2,089,912.75        Pre-Complaint                      296                                  Certification                21
 Rent, security and related space                                                                                    No Hearing
                                                                    Pre-Complaint/                                                          Other                        19
(Without parking)                                299,573.46
                                                                    Compliance                          11                                  Certification                  5
 Parking                                                  -                                                          Pre-Election Hearing
                                                                    After Complaint, Before                                                 Other                          2
 Mileage                                           1,947.28
                                                                    Hearing                              8                                  Certification                  1
 TDY-related travel                               13,433.73                                                          Post-Election Hearing
                                                                    After Complaint, Before                                                 Other
 Car rental - non-GSA                                230.86         Hearing/ Compliance                 16           Both Pre- and Post-    Certification
 Car rental - GSA                                         -         After Hearing, Before                            Election Hearings      Other
 Witness fees and travel                           1,015.18         Board Decision                       1           Open at September 30, 2009                             12
 Interpreter and translation                      10,845.10
                                                                    After Hearing, Before
 Field reporting                                  19,442.00
                                                                    Board Decision/                                  Employee Classification                         Number
 Supplies                                          5,881.31         Compliance                           2           Managers                                             2
 Copier                                           13,617.84         After Board Decision                             Supervisors                                          2
 Computer - amortized                              6,261.94         After Board Decision/                            Board Agents                                        10
 Health units                                      3,668.92         Compliance                                       Compliance Officers                                  1
 Transit benefits                                         -         After Court Judgment                             Support Managers                                     1
 Leased telephone lines                           29,159.40         After Court Judgment/                            Support                                              5
 Conference calls                                  4,525.92         Compliance                                       Interns/Detailees/Other                              3
 FTS                                               1,199.86         Open at September 30,
 Postage                                             226.50         2009                               230              Clerical staff per professional staff               0.4
 Mail room                                                -
 Messenger services                                1,772.06
 Other directly charged casehandling                 176.95
 Parking - casehandling                                   -
 Wide area network                                12,541.81
 Database services                                15,776.31
 Summary total                               $ 2,531,209.18
                                                                                  30
                                                                     Region 25 – Indianapolis

                                                                                 Single Agent        Multiple Agent
                      Single Agent       Multiple                              Cases Production     Cases Production
                          Cases        Agent Cases        Total Cases                Units                Units                    Total Units
                        C       R        C      R      C      R     Total                                                                         Total     Cost Per
                      cases cases      cases cases   cases cases Cases        C cases    R cases    C cases   R cases   C cases     R cases       Units      Unit
   Cases w/
   Agents              591     42      120    18     711       60   771       1,154.50      84.00   332.16    36.00     1,486.66    120.00       1,606.66
   Cases w/out                                                                                                                                              $2,137.50
   Agents                                             1        1     2                                                    1.00       2.00          3.00
   Total               591     42      120    18     712       61   773       1,154.50      84.00   332.16    36.00     1,487.66    122.00       1,609.66

Case Processing Costs                               Amount
                                                                    C Case Resolution               Total          R Case Resolution                               Total
 Salary and benefits                            3,053,051.39        Pre-Complaint                    359                                  Certification              20
 Rent, security and related space                                                                                  No Hearing
                                                                    Pre-Complaint/                                                        Other                      23
(Without parking)                                255,308.21
                                                                    Compliance                        18                                  Certification                2
 Parking                                           1,088.03                                                        Pre-Election Hearing
                                                                    After Complaint, Before                                               Other                        1
 Mileage                                          11,761.70
                                                                    Hearing                            9                                  Certification                1
 TDY-related travel                               15,303.52                                                        Post-Election Hearing
                                                                    After Complaint, Before                                               Other
 Car rental - non-GSA                                     -         Hearing/ Compliance               25           Both Pre- and Post-    Certification                  1
 Car rental - GSA                                  3,413.16         After Hearing, Before                          Election Hearings      Other
 Witness fees and travel                           2,763.01         Board Decision                     2           Open at September 30, 2009                           13
 Interpreter and translation                         211.10
                                                                    After Hearing, Before
 Field reporting                                  14,526.20
                                                                    Board Decision/                                Employee Classification                      Number
 Supplies                                          8,055.07         Compliance                                     Managers                                          3
 Copier                                           13,617.84         After Board Decision                           Supervisors                                       2
 Computer - amortized                              7,454.28         After Board Decision/                          Board Agents                                     13
 Health units                                      3,887.74         Compliance                         9           Compliance Officers                               1
 Transit benefits                                  1,940.00         After Court Judgment                           Support Managers                                  1
 Leased telephone lines                            9,903.56         After Court Judgment/                          Support                                           7
 Conference calls                                  4,003.23         Compliance                         3           Interns/Detailees/Other                          10
 FTS                                                 524.10         Open at September 30,
 Postage                                            (13.73)         2009                             287           Clerical staff per professional staff                0.4
 Mail room                                                -
 Messenger services                                1,061.08
 Other directly charged casehandling               1,549.88
 Parking - casehandling                                   -
 Wide area network                                12,541.81
 Database services                                18,696.86
 Summary total                               $ 3,440,648.04
                                                                                  31
                                                     Region 26 – Memphis (Includes two Resident Offices)

                                                                                 Single Agent          Multiple Agent
                       Single Agent      Multiple                              Cases Production       Cases Production
                           Cases       Agent Cases        Total Cases                Units                  Units                     Total Units
                         C       R       C      R      C      R     Total                                                                            Total      Cost Per
                       cases cases     cases cases   cases cases Cases         C cases      R cases   C cases   R cases     C cases     R cases      Units       Unit
     Cases w/
     Agents             531     34      76      5     607      39   646        959.50       68.00     222.67    10.00      1,182.17      78.00      1,260.17
     Cases w/out                                                                                                                                                $2,741.22
     Agents                                            1        0    1                                                       2.50         0.00        2.50
     Total              531     34      76      5     608      39   647        959.50       68.00     222.67    10.00      1,184.67      78.00      1,262.67

Case Processing Costs                               Amount
                                                                    C Case Resolution                 Total             R Case Resolution                                   Total
 Salary and benefits                            2,989,491.85        Pre-Complaint                      354                                     Certification                  22
 Rent, security and related space                                                                                       No Hearing
                                                                    Pre-Complaint/                                                             Other                          11
(Without parking)                                293,190.27
                                                                    Compliance                           21                                    Certification                    1
 Parking                                                  -                                                             Pre-Election Hearing
                                                                    After Complaint, Before                                                    Other                            1
 Mileage                                           9,196.83
                                                                    Hearing                               2                                    Certification
 TDY-related travel                                7,578.54                                                             Post-Election Hearing
                                                                    After Complaint, Before                                                    Other
 Car rental - non-GSA                                251.35         Hearing/ Compliance                  22             Both Pre- and Post-    Certification
 Car rental - GSA                                         -         After Hearing, Before                               Election Hearings      Other
 Witness fees and travel                             187.75         Board Decision                                      Open at September 30, 2009                             4
 Interpreter and translation                              -
                                                                    After Hearing, Before
 Field reporting                                   7,519.25
                                                                    Board Decision/                                  Employee Classification                          Number
 Supplies                                          6,856.75         Compliance                            2          Managers                                              3
 Copier                                           33,945.84         After Board Decision                             Supervisors                                           4
 Computer - amortized                              7,503.45         After Board Decision/                            Board Agents                                         10
 Health units                                      3,184.96         Compliance                            1          Compliance Officers                                   1
 Transit benefits                                  1,225.00         After Court Judgment                  1          Support Managers                                      1
 Leased telephone lines                           26,370.34         After Court Judgment/                            Support                                               7
 Conference calls                                 15,828.13         Compliance                            1          Interns/Detailees/Other                               3
 FTS                                                 494.05         Open at September 30,
 Postage                                             210.28         2009                               204              Clerical staff per professional staff                 0.4
 Mail room                                                -
 Messenger services                                1,234.30
 Other directly charged casehandling                 668.71
 Parking - casehandling                                   -
 Wide area network                                37,625.43
 Database services                                18,696.86
 Summary total                               $ 3,461,259.94
                                                                                  32
                                                                          Region 27 – Denver

                                                                                 Single Agent         Multiple Agent
                      Single Agent       Multiple                              Cases Production      Cases Production
                          Cases        Agent Cases        Total Cases                Units                 Units                       Total Units
                        C       R        C      R      C      R     Total                                                                             Total      Cost Per
                      cases cases      cases cases   cases cases Cases         C cases   R cases     C cases   R cases       C cases     R cases      Units       Unit
    Cases w/
    Agents             582     56      100    11     682       67   749       1,104.50      112.00   257.07    22.58        1,361.57     134.58      1,496.15
    Cases w/out                                                                                                                                                  $2,250.11
    Agents                                            2        0     2                                                        4.00        0.00         4.00
    Total              582     56      100    11     684       67   751       1,104.50      112.00   257.07    22.58        1,365.57     134.58      1,500.15

Case Processing Costs                               Amount
                                                                    C Case Resolution                Total             R Case Resolution                                 Total
 Salary and benefits                            2,880,649.64        Pre-Complaint                     422                                     Certification                29
 Rent, security and related space                                                                                      No Hearing
                                                                    Pre-Complaint/                                                            Other                        19
(Without parking)                                333,297.47
                                                                    Compliance                          29                                    Certification                  2
 Parking                                                  -                                                            Pre-Election Hearing
                                                                    After Complaint, Before                                                   Other                          2
 Mileage                                           9,997.55
                                                                    Hearing                                                                   Certification
 TDY-related travel                               19,540.12                                                            Post-Election Hearing
                                                                    After Complaint, Before                                                   Other
 Car rental - non-GSA                              2,928.52         Hearing/ Compliance                 15             Both Pre- and Post-    Certification
 Car rental - GSA                                         -         After Hearing, Before                              Election Hearings      Other
 Witness fees and travel                             305.31         Board Decision                                     Open at September 30, 2009                            15
 Interpreter and translation                       2,268.00
                                                                    After Hearing, Before
 Field reporting                                  12,973.90
                                                                    Board Decision/                                    Employee Classification                        Number
 Supplies                                         13,751.77         Compliance                                         Managers                                            3
 Copier                                           13,617.84         After Board Decision                               Supervisors                                         1
 Computer - amortized                              5,846.33         After Board Decision/                              Board Agents                                       12
 Health units                                      2,940.00         Compliance                          32             Compliance Officers                                 1
 Transit benefits                                 15,808.00         After Court Judgment                               Support Managers                                    1
 Leased telephone lines                           12,090.44         After Court Judgment/                              Support                                             7
 Conference calls                                  3,958.64         Compliance                           1             Interns/Detailees/Other                             7
 FTS                                                 666.16         Open at September 30,
 Postage                                           8,000.00         2009                               185               Clerical staff per professional staff               0.5
 Mail room                                                -
 Messenger services                                  626.77
 Other directly charged casehandling               5,000.48
 Parking - casehandling                                   -
 Wide area network                                12,541.81
 Database services                                18,696.86
 Summary total                               $ 3,375,505.61
                                                                                  33
                                                     Region 28 – Phoenix (Includes two Resident Offices)

                                                                                   Single Agent          Multiple Agent
                       Single Agent      Multiple                                Cases Production       Cases Production
                           Cases       Agent Cases        Total Cases                  Units                  Units                    Total Units
                         C       R       C      R      C      R     Total                                                                             Total     Cost Per
                       cases cases     cases cases   cases cases Cases           C cases     R cases    C cases   R cases   C cases     R cases       Units      Unit
    Cases w/
    Agents             902      84     257     16    1,159     100   1,259      1,887.50       168.00   708.66    33.00     2,596.16     201.00      2,797.16
    Cases w/out                                                                                                                                                 $1,742.25
    Agents                                             1        0      1                                                      0.00        0.00         0.00
    Total              902      84     257     16    1,160     100   1,260      1,887.50       168.00   708.66    33.00     2,596.16     201.00      2,797.16

Case Processing Costs                               Amount
                                                                     C Case Resolution                  Total          R Case Resolution                               Total
 Salary and benefits                            3,984,023.87         Pre-Complaint                       586                                  Certification              31
 Rent, security and related space                                                                                      No Hearing
                                                                     Pre-Complaint/                                                           Other                      29
(Without parking)                                518,338.12
                                                                     Compliance                           41                                  Certification                2
 Parking                                                  -                                                            Pre-Election Hearing
                                                                     After Complaint, Before                                                  Other                        2
 Mileage                                           9,830.31
                                                                     Hearing                              28                                  Certification                2
 TDY-related travel                               42,373.99                                                            Post-Election Hearing
                                                                     After Complaint, Before                                                  Other
 Car rental - non-GSA                              1,915.51          Hearing/ Compliance                  43           Both Pre- and Post-    Certification                  1
 Car rental - GSA                                         -          After Hearing, Before                             Election Hearings      Other
 Witness fees and travel                          10,088.02          Board Decision                        7           Open at September 30, 2009                           33
 Interpreter and translation                      12,585.00
                                                                     After Hearing, Before
 Field reporting                                  65,119.44
                                                                     Board Decision/                                   Employee Classification                      Number
 Supplies                                         14,382.44          Compliance                            6           Managers                                          3
 Copier                                           29,176.08          After Board Decision                              Supervisors                                       3
 Computer - amortized                             10,526.72          After Board Decision/                             Board Agents                                     19
 Health units                                      8,569.49          Compliance                            9           Compliance Officers                               1
 Transit benefits                                  9,449.00          After Court Judgment                              Support Managers                                  1
 Leased telephone lines                           64,799.79          After Court Judgment/                             Support                                           9
 Conference calls                                 16,143.97          Compliance                           16           Interns/Detailees/Other                           6
 FTS                                                 953.21          Open at September 30,
 Postage                                           5,378.00          2009                                424           Clerical staff per professional staff                0.4
 Mail room                                                -
 Messenger services                                  742.91
 Other directly charged casehandling               5,638.25
 Parking - casehandling                                   -
 Wide area network                                37,625.43
 Database services                                25,706.18
 Summary total                               $ 4,873,365.73
                                                                                   34
                                                                       Region 29 – Brooklyn

                                                                                    Single Agent           Multiple Agent
                        Single Agent     Multiple                                 Cases Production        Cases Production
                            Cases      Agent Cases         Total Cases                  Units                   Units                    Total Units
                          C       R      C      R       C      R      Total                                                                             Total     Cost Per
                        cases cases    cases cases    cases cases Cases           C cases      R cases    C cases   R cases   C cases     R cases       Units      Unit
    Cases w/
    Agents              1,360    200    42       4    1,402    204    1,606       3,115.50     400.00      91.75     8.00     3,207.25     408.00      3,615.25
    Cases w/out                                                                                                                                                   $2,186.72
    Agents                                              7       2       9                                                      16.50        4.00        20.50
    Total               1,360    200    42       4    1,409    206    1,615       3,115.50     400.00      91.75     8.00     3,223.75     412.00      3,635.75

Case Processing Costs                               Amount
                                                                     C Case Resolution                   Total          R Case Resolution                                Total
 Salary and benefits                            6,466,848.12         Pre-Complaint                        899                                  Certification               76
 Rent, security and related space                                                                                       No Hearing
                                                                     Pre-Complaint/                                                            Other                       68
(Without parking)                              1,141,301.80
                                                                     Compliance                            29                                  Certification               12
 Parking                                                  -                                                             Pre-Election Hearing
                                                                     After Complaint, Before                                                   Other                         2
 Mileage                                           2,153.51
                                                                     Hearing                               24                                  Certification                 5
 TDY-related travel                                6,797.59                                                             Post-Election Hearing
                                                                     After Complaint, Before                                                   Other                         2
 Car rental - non-GSA                                198.00          Hearing/ Compliance                   31           Both Pre- and Post-    Certification                 4
 Car rental - GSA                                         -          After Hearing, Before                              Election Hearings      Other
 Witness fees and travel                             414.03          Board Decision                         9           Open at September 30, 2009                            37
 Interpreter and translation                      58,823.24
                                                                     After Hearing, Before
 Field reporting                                  47,518.10
                                                                     Board Decision/                                    Employee Classification                        Number
 Supplies                                         22,978.15          Compliance                            11           Managers                                            3
 Copier                                           13,617.84          After Board Decision                               Supervisors                                         5
 Computer - amortized                             15,705.39          After Board Decision/                              Board Agents                                       30
 Health units                                      6,492.50          Compliance                                         Compliance Officers                                 1
 Transit benefits                                 52,978.00          After Court Judgment                               Support Managers                                    1
 Leased telephone lines                           43,071.95          After Court Judgment/                              Support                                            13
 Conference calls                                  5,062.98          Compliance                            13           Interns/Detailees/Other                            14
 FTS                                               1,367.69          Open at September 30,
 Postage                                          10,000.00          2009                                 393           Clerical staff per professional staff                 0.4
 Mail room                                                -
 Messenger services                                3,096.12
 Other directly charged casehandling               4,355.00
 Parking - casehandling                                   -
 Wide area network                                12,541.81
 Database services                                35,051.94
 Summary total                               $ 7,950,373.76
                                                                                   35
                                                                     Region 30 – Milwaukee

                                                                                  Single Agent         Multiple Agent
                        Single Agent     Multiple                               Cases Production      Cases Production
                            Cases      Agent Cases         Total Cases                Units                 Units                    Total Units
                          C       R      C      R       C      R     Total                                                                          Total     Cost Per
                        cases cases    cases cases    cases cases Cases         C cases     R cases   C cases   R cases   C cases     R cases       Units      Unit
     Cases w/
     Agents             531      30    110      28    641      58    699       1,205.50       60.00    182.00   56.04     1,387.50     116.04      1,503.54
     Cases w/out                                                                                                                                              $1,838.86
     Agents                                            1       0      1                                                     2.50        0.00         2.50
     Total              531      30    110      28    642      58    700       1,205.50       60.00    182.00   56.04     1,390.00     116.04      1,506.04

Case Processing Costs                               Amount
                                                                    C Case Resolution                 Total          R Case Resolution                                Total
 Salary and benefits                            2,275,875.33        Pre-Complaint                      417                                  Certification               21
 Rent, security and related space                                                                                    No Hearing
                                                                    Pre-Complaint/                                                          Other                       24
(Without parking)                                283,458.55
                                                                    Compliance                          23                                  Certification                 1
 Parking                                                  -                                                          Pre-Election Hearing
                                                                    After Complaint, Before                                                 Other                         6
 Mileage                                          16,686.92
                                                                    Hearing                              2                                  Certification
 TDY-related travel                               13,563.38                                                          Post-Election Hearing
                                                                    After Complaint, Before                                                 Other
 Car rental - non-GSA                                855.94         Hearing/ Compliance                 11           Both Pre- and Post-    Certification
 Car rental - GSA                                         -         After Hearing, Before                            Election Hearings      Other
 Witness fees and travel                           5,482.37         Board Decision                       1           Open at September 30, 2009                            6
 Interpreter and translation                       1,250.00
                                                                    After Hearing, Before
 Field reporting                                  64,219.86
                                                                    Board Decision/                                  Employee Classification                       Number
 Supplies                                          8,750.39         Compliance                           4           Managers                                           2
 Copier                                           13,617.84         After Board Decision                             Supervisors                                        2
 Computer - amortized                              6,525.94         After Board Decision/                            Board Agents                                      11
 Health units                                      3,175.60         Compliance                                       Compliance Officers                                1
 Transit benefits                                  6,492.00         After Court Judgment                             Support Managers                                   1
 Leased telephone lines                           33,544.61         After Court Judgment/                            Support                                            5
 Conference calls                                  4,002.38         Compliance                           1           Interns/Detailees/Other                            5
 FTS                                                 766.60         Open at September 30,
 Postage                                                  -         2009                               183           Clerical staff per professional staff                0.4
 Mail room                                                -
 Messenger services                                1,009.69
 Other directly charged casehandling                 628.68
 Parking - casehandling                                   -
 Wide area network                                12,541.81
 Database services                                16,944.53
 Summary total                               $ 2,769,392.42
                                                                                  36
                                                                     Region 31 – Los Angeles

                                                                                  Single Agent           Multiple Agent
                       Single Agent      Multiple                               Cases Production        Cases Production
                           Cases       Agent Cases        Total Cases                 Units                   Units                       Total Units
                         C       R       C      R      C      R     Total                                                                                Total     Cost Per
                       cases cases     cases cases   cases cases Cases          C cases       R cases   C cases   R cases      C cases     R cases       Units      Unit
    Cases w/
    Agents              770     91     271     2     1,041     93   1,134       1,563.00      182.00     707.59    5.01        2,270.59     187.01      2,457.60
    Cases w/out                                                                                                                                                    $2,007.40
    Agents                                             1        0     1                                                          2.00        0.00         2.00
    Total               770     91     271     2     1,042     93   1,135       1,563.00      182.00     707.59    5.01        2,272.59     187.01      2,459.60

Case Processing Costs                               Amount
                                                                    C Case Resolution                   Total          R Case Resolution                                   Total
 Salary and benefits                            3,968,049.28        Pre-Complaint                        728                                  Certification                  37
 Rent, security and related space                                                                                      No Hearing
                                                                    Pre-Complaint/                                                            Other                          25
(Without parking)                                711,808.97
                                                                    Compliance                            13                                  Certification
 Parking                                                  -                                                            Pre-Election Hearing
                                                                    After Complaint, Before                                                   Other
 Mileage                                          10,267.28
                                                                    Hearing                               14                                  Certification                     1
 TDY-related travel                               23,714.44                                                            Post-Election Hearing
                                                                    After Complaint, Before                                                   Other                             1
 Car rental - non-GSA                                     -         Hearing/ Compliance                   16           Both Pre- and Post-    Certification
 Car rental - GSA                                         -         After Hearing, Before                              Election Hearings      Other
 Witness fees and travel                           1,543.80         Board Decision                                     Open at September 30, 2009                              29
 Interpreter and translation                      25,205.60
                                                                    After Hearing, Before
 Field reporting                                  20,207.51
                                                                    Board Decision/                                   Employee Classification                           Number
 Supplies                                         10,645.24         Compliance                             1          Managers                                               3
 Copier                                           20,328.00         After Board Decision                              Supervisors                                            4
 Computer - amortized                             10,351.22         After Board Decision/                             Board Agents                                          16
 Health units                                      3,836.41         Compliance                             3          Compliance Officers                                    1
 Transit benefits                                  4,968.00         After Court Judgment                              Support Managers                                       1
 Leased telephone lines                           69,589.01         After Court Judgment/                             Support                                                8
 Conference calls                                  3,948.89         Compliance                             8          Interns/Detailees/Other                                6
 FTS                                               5,596.80         Open at September 30,
 Postage                                           5,000.00         2009                                 259              Clerical staff per professional staff                0.4
 Mail room                                                -
 Messenger services                                1,291.08
 Other directly charged casehandling               3,302.95
 Parking - casehandling                            2,410.00
 Wide area network                                12,541.81
 Database services                                22,785.63
 Summary total                               $ 4,937,391.92
                                                                                  37
                                                                        Region 32 – Oakland

                                                                                   Single Agent           Multiple Agent
                      Single Agent       Multiple                                Cases Production        Cases Production
                          Cases        Agent Cases        Total Cases                  Units                   Units                   Total Units
                        C       R        C      R      C     R      Total                                                                             Total     Cost Per
                      cases cases      cases cases   cases cases Cases           C cases     R cases    C cases   R cases    C cases     R cases      Units      Unit
   Cases w/
   Agents             1,054    117     231     57    1,285     174   1,459      2,167.50       234.00   560.22    100.08    2,727.72     334.08      3,061.80
   Cases w/out                                                                                                                                                  $1,718.47
   Agents                                              6        0      6                                                     13.00        0.00        13.00
   Total              1,054    117     231     57    1,291     174   1,465      2,167.50       234.00   560.22    100.08    2,740.72     334.08      3,074.80

Case Processing Costs                               Amount
                                                                     C Case Resolution                  Total          R Case Resolution                               Total
 Salary and benefits                            4,458,329.20         Pre-Complaint                       824                                  Certification              39
 Rent, security and related space                                                                                      No Hearing
                                                                     Pre-Complaint/                                                           Other                      47
(Without parking)                                609,012.39
                                                                     Compliance                           53                                  Certification                5
 Parking                                                  -                                                            Pre-Election Hearing
                                                                     After Complaint, Before                                                  Other                      10
 Mileage                                           9,747.40
                                                                     Hearing                              11                                  Certification                4
 TDY-related travel                               20,025.33                                                            Post-Election Hearing
                                                                     After Complaint, Before                                                  Other
 Car rental - non-GSA                                 54.19          Hearing/ Compliance                  19           Both Pre- and Post-    Certification                  1
 Car rental - GSA                                 11,187.15          After Hearing, Before                             Election Hearings      Other                          1
 Witness fees and travel                              74.29          Board Decision                                    Open at September 30, 2009                           67
 Interpreter and translation                       2,362.25
                                                                     After Hearing, Before
 Field reporting                                  28,478.55
                                                                     Board Decision/                                   Employee Classification                      Number
 Supplies                                         11,649.83          Compliance                            1           Managers                                          3
 Copier                                           13,617.84          After Board Decision                              Supervisors                                       4
 Computer - amortized                             11,960.83          After Board Decision/                             Board Agents                                     20
 Health units                                      4,532.47          Compliance                            9           Compliance Officers                               1
 Transit benefits                                 20,979.00          After Court Judgment                              Support Managers                                  1
 Leased telephone lines                           26,778.28          After Court Judgment/                             Support                                           9
 Conference calls                                  3,938.99          Compliance                            3           Interns/Detailees/Other                           3
 FTS                                                 131.00          Open at September 30,
 Postage                                           8,000.00          2009                                371           Clerical staff per professional staff                0.4
 Mail room                                                -
 Messenger services                                2,134.38
 Other directly charged casehandling                 659.60
 Parking - casehandling                              875.00
 Wide area network                                12,541.81
 Database services                                26,874.40
 Summary total                               $ 5,283,944.18
                                                                                   38
                                                                      Region 34 – Hartford

                                                                                  Single Agent           Multiple Agent
                        Single Agent     Multiple                               Cases Production        Cases Production
                            Cases      Agent Cases         Total Cases                Units                   Units                    Total Units
                          C       R      C      R       C      R     Total                                                                            Total     Cost Per
                        cases cases    cases cases    cases cases Cases         C cases       R cases   C cases   R cases   C cases     R cases       Units      Unit
     Cases w/
     Agents              482     35     87      38     569     73    642        1,028.00      70.00     193.65    76.12     1,221.65     146.12      1,367.77
     Cases w/out                                                                                                                                                $2,284.17
     Agents                                             1       1     2                                                       2.00        2.00         4.00
     Total               482     35     87      38     570     74    644        1,028.00      70.00     193.65    76.12     1,223.65     148.12      1,371.77

Case Processing Costs                               Amount
                                                                    C Case Resolution                   Total          R Case Resolution                                Total
 Salary and benefits                            2,725,640.43        Pre-Complaint                        283                                  Certification               37
 Rent, security and related space                                                                                      No Hearing
                                                                    Pre-Complaint/                                                            Other                       10
(Without parking)                                298,006.41
                                                                    Compliance                            40                                  Certification                 2
 Parking                                                  -                                                            Pre-Election Hearing
                                                                    After Complaint, Before                                                   Other                         3
 Mileage                                           4,225.48
                                                                    Hearing                               14                                  Certification                 1
 TDY-related travel                                1,570.97                                                            Post-Election Hearing
                                                                    After Complaint, Before                                                   Other
 Car rental - non-GSA                                     -         Hearing/ Compliance                   46           Both Pre- and Post-    Certification
 Car rental - GSA                                  3,162.39         After Hearing, Before                              Election Hearings      Other
 Witness fees and travel                             859.35         Board Decision                         1           Open at September 30, 2009                           21
 Interpreter and translation                         715.00
                                                                    After Hearing, Before
 Field reporting                                  12,705.95
                                                                    Board Decision/                                    Employee Classification                       Number
 Supplies                                          5,682.67         Compliance                             4           Managers                                           3
 Copier                                           13,617.84         After Board Decision                               Supervisors                                        2
 Computer - amortized                              5,766.89         After Board Decision/                              Board Agents                                       9
 Health units                                      5,724.99         Compliance                             2           Compliance Officers                                1
 Transit benefits                                  5,625.00         After Court Judgment                               Support Managers                                   1
 Leased telephone lines                           15,715.33         After Court Judgment/                              Support                                            5
 Conference calls                                  4,003.23         Compliance                             6           Interns/Detailees/Other                            5
 FTS                                                 567.81         Open at September 30,
 Postage                                                  -         2009                                 174           Clerical staff per professional staff                0.4
 Mail room                                                -
 Messenger services                                1,242.84
 Other directly charged casehandling                 202.13
 Parking - casehandling                                   -
 Wide area network                                12,541.81
 Database services                                15,776.31
 Summary total                               $ 3,133,352.83
                                                                                  39
Case Distances

We also analyzed cases by distance from the Regional
Office. We conducted this analysis to show what the
Regions' cost per unit was relative to the distance from
offices.




              40
RECOMMENDATIONS

            We recommend that the Division of Operations-
            Management reduce overhead expenses and achieve
            greater efficiencies in its Regional operations.

            Specifically, we recommend that:

                   Regions that are located in or near the same
            metropolitan area be considered for consolidation into
            either a single office or a Regional Office with a
            Resident Office;

                   Regions with less than 800 cases be considered
            for consolidation into another Region or with one office
            being a Regional Office and the other being a Resident
            Office;

                   Relocate offices in high rent urban office
            districts to locations that offer lower lease costs when
            the relocation will result in cost savings; and

                  Eliminate, by attrition, positions in overstaffed
            Regions as represented by the ratio of cases to case
            processing employees.

            We do not consider these recommendations as
            alternatives to one another. Rather, we believe that
            the data supports that over time each one of the
            specific recommendations will achieve cost savings not
            achieved by another.

            We make these recommendations based on a number
            of factors that include the number of cases processed
            by the Region, the case production unit cost, and the
            number of managers and supervisors. From this data,
            we generally observed that Regions with fewer than
            800 cases had higher overhead costs related to
            mangers and supervisors as compared to the Regions
            that processed more than 1,000 cases. Consolidating
            these Regions into other Regions will leverage the
            overhead costs and should achieve greater efficiency




                           41
as reflected in a lower case production unit cost than
the average of the two separate Regions.

We also observed that although there have been a
number of significant economic changes in the past
several decades, the structure by which the NLRB’s
case processing is accomplished remains relatively
consistent. Despite the loss of union activity in certain
geographic areas, the NLRB maintains a Regional
Office presence in those areas. In addressing the
recommendations, managers should question the
basic assumptions upon which the NLRB Regional
operations have been based for decades and ensure
that the Regional Office structure is designed to meet
future case processing needs.




               42
Appendix
UNITED STATES GOVERNMENT
NATIONAL LABOR RELATIONS BOARD
DIVISION OF OPERATIONS-MANAGEMENT


Memorandum
To:        David Berry, Inspector General                     Date: April 6, 2011

From:      Richard A Siegel, Associate General Counsel

Re:        Draft Report of "Case Processing Costs"

       Management appreciates the opportunity to provide comments in
response to the Draft Report of the audit conducted by the Office of the Inspector
General on "Case Processing Costs." The issues addressed in the audit are of
considerable importance to the Agency.

       The Acting General Counsel is committed to ensuring both that the
Regional Office structure is designed to meet future case processing needs and
that case processing is as efficient as possible. He has established work groups
to consider cost savings in the short term and the longer term, including possible
restructuring of offices. The data you provided will be very valuable to that effort.
Your recommendations to consider consolidating offices, relocating offices to
lower their rent, and eliminating positions in overstaffed Regions by attrition will
be thoroughly evaluated. Our initial response to those recommendations and to
your projected savings is set forth below.

        Consolidation of Offices

        With regard to consolidating offices, we do not believe that consolidation
should be undertaken just because a Region is processing less than 800 cases.
In fact, the data that you developed showed that three Regions with less than
800 cases were more efficient than half of the other Regions and that the most
efficient Region processed 869 cases, slightly over the limit you suggest. We
believe that any consolidation or restructuring of offices should take into account
a detailed examination of staffing levels, travel costs, and fluctuation in case
intake.

                Staffing Levels: Every month a goal or "ceiling" of professional
employees and of support staff employees is calculated for each Region based
on that Region's case intake, which may fluctuate considerably. These goals are
used to determine hiring and to transfer work where possible. A Region's over or
under-staffing, Le. whether it is over or under the desired staffing goal, bears a
close correlation to its productivity. Thus, if a Region is overstaffed and our goal
(through attrition) is to bring it in line with its ceilings, its interim productivity would
not be good. On the other hand, Regions that operate below ceiling because
hiring authority is not available to the office or because of hiring delays may
appear more efficient but the quality of the work may suffer if the staffing
shortage is too extreme. Our initial analysis of the impact of staffing on the cost
per unit in your report indicates that Regions that had significant overstaffing (Le.
Regions 6, 17, and 25) during FY 2009 had low productivity. Regions that were
understaffed (Le. Regions 5 and 32) in FY 2009 had the second and fourth
lowest cost per unit figures. When the staffing is optimum, we believe that the
productivity per unit will become more consistent from office to office. We do
agree that overstaffed regions' staffing should be reduced by attrition and that
has always been our plan. Having said that, staffing is largely based on intake
and intake is not always consistent or predictable. Thus, a region that is
overstaffed one quarter may become understaffed the next quarter due to an
uptick in case intake.

                Travel Costs: The report provides some data on travel and we
agree that this factor should be considered in evaluating productivity because
higher amounts of travel will lower a Region's productivity. We note however,
that your report looked at distances from the Regional office and not from a
Resident office or the area served by a Resident Agent. As over half of our
regional offices have either resident office(s) or resident agents, are-evaluation
of the travel costs would be appropriate. In evaluating possible consolidation of
offices, we would need to consider the number of cases in the area and the
possibility that consolidation would result in higher travel costs to cover the
cases.

               Fluctuation in Case Intake: The trends in case intake are a
significant indicator of where an office should be located. While your report
carefully reviews and analyzes the cases in a one year period, because our case
intake fluctuates we would add to that an analysis of where the cases are in
relation to where our offices are over a period of three years.

       Relocation of Offices

         The rental costs you provide are very helpful. In planning for the future,
we may want to analyze the cost savings that could be realized in relocating
offices. For years, we have maintained that a presence in the central business
districts of many urban areas is essential to customer service. It may be time to
challenge that premise and examine whether costs could be reduced by moving
to a suburban location that is accessible to the public.

       Reducing Staff by Attrition

        As noted above, we currently use staffing levels to determine hiring and
transfer of work among the Regions. We will continue to use staffing levels for
those decisions, including reducing the number of positions by attrition in
overstaffed Regions.



                                        -2 -
,   -
    "




                Thank you for the time consuming and challenging work by you and your
        staff in gathering the data and preparing this report. It will be very helpful to the
        Agency in planning for future operat~~

                                               ~~.S.




                                                 -3 -
